<html>
<title> - ENSURING COORDINATION AND COOPERATION: A REVIEW OF THE EMERGENCY COMMUNICATIONS OFFICES WITHIN THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   ENSURING COORDINATION AND COOPERATION: A REVIEW OF THE EMERGENCY 

   COMMUNICATIONS OFFICES WITHIN THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2011

                               __________

                           Serial No. 112-58

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
76-625                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Chris Essid, Director, Office of Emergency Communications, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     9
Mr. John O'Connor, Manager, National Coordinating Center for 
  Communications, National Protection and Programs Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................     9
Mr. Damon Penn, Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency:
  Oral Statement.................................................    18
  Joint Prepared Statement.......................................    19
Mr. Eric Edwards, Director, Disaster Emergency Communications 
  Division, Response Directorate, Federal Emergency Management 
  Agency:
  Oral Statement.................................................    21
  Joint Prepared Statement.......................................    19
Ms. Linda K. Moore, Specialist in Telecommunications and Spectrum 
  Policy, Congressional Research Service:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25


   ENSURING COORDINATION AND COOPERATION: A REVIEW OF THE EMERGENCY 
   COMMUNICATIONS OFFICES WITHIN THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                      Thursday, November 17, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Marino, Turner, 
Richardson, Clarke, and Thompson (ex officio).
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony on the 
functions of the various offices within the Department of 
Homeland Security with responsibility for emergency 
communications.
    First off, I would like to welcome Mr. Turner from the 
great State of New York onto the committee. So would you like 
to say a couple words?
    Mr. Turner. It is just very nice to be here. I know we are 
pressed for time.
    Mr. Bilirakis. It is great to have you, sir. I appreciate 
it.
    I now recognize myself for an opening statement. I am 
pleased that our witnesses are here today to discuss efforts to 
coordinate emergency communications within the Department of 
Homeland Security. There are at least 10 offices within the DHS 
with responsibility over these functions. We will hear from 
representatives of some of those offices this afternoon. In 
this difficult budgetary climate, we must ensure that offices 
and programs are coordinating and working as efficiently as 
possible. There is no room for duplication of efforts.
    In 2009, the Secretary of Homeland Security designated the 
Office of Emergency Communications as the leader for 
departmental communication efforts. As such, the OEC is 
responsible for policy development and leads the One DHS 
Communications Committee, which is tasked with maximizing the 
effectiveness and efficiency of the Department's emergency 
communications activities. I hope that our witnesses will 
address how this structure works in practice and how the 
committee works to ensure that policies, operations, and 
technology procurement are consistent across the Department.
    In addition to hearing how the various offices work with 
one another, I would also like to hear about the coordination 
of engagement with State and local partners. For instance, OEC 
has assisted States with the development of State-wide 
communications interoperability plans, while FEMA's Disaster 
Emergency Communications Division, DEC, works with States to 
develop operational communication plans. What is being done to 
prevent confusion among States as to which office to provide 
information? It is so important.
    As these plans require updating, how are OEC and DEC 
working together to ensure that there is no further confusion, 
and reporting requirements are not duplicative? Are there ways 
to streamline different communications planning requirements 
for States? A robust alert and warning system is a vital part 
of emergency communications. This hearing is particularly 
timely in light of the first-ever National test of the 
Emergency Alert System that was conducted last week.
    I am pleased to have Administrator Penn back before the 
subcommittee. I look forward to hearing about any successes and 
gaps identified by last week's test, and any steps that are 
necessary to further enhance the system going forward, and 
address any identified weaknesses.
    I am also interested in the progress of the implementation 
of the Personal Localized Alerting Network, the PLAN, the new 
public safety system to enable text alert messages during 
emergency situations. Is PLAN on track for deployment in New 
York City and Washington, DC by the end of this year? Then 
Nation-wide, is it on track to be implemented by April next 
year? As you work with other Federal entities, States, and 
localities, and the private sector to deploy the technology, 
are you continuing to educate the public on how this system 
works and taking steps to ensure that privacy is protected? So 
important.
    We also share the goal of enhancing emergency 
communications capabilities. I look forward to hearing from our 
witnesses about how they work with one another and other DHS 
component offices, other Federal agencies and departments, and 
State and local partners.
    The Chairman will now recognize, and I know we don't have a 
lot of time, so we will probably have to break after our 
Minority Member gives her statement, but I recognize Ms. 
Richardson for as long as she would like for an opening 
statement.
    Ms. Richardson. Thank you, Mr. Chairman. Good afternoon to 
all of you, and thank you for convening this hearing focusing 
on ensuring coordination amongst DHS' several emergency 
communication offices. I would also like to thank our witnesses 
that are with us for serving our country, as all of you have 
done, and for your continued willingness to support this 
committee as well.
    Emergency communications broadly encompasses interoperable 
communications, alerts, and warnings, and building resilient 
networks. The Nation has faced several disasters this year and 
in the past that requires us to reaffirm our commitment to 
improving emergency communications. Hurricanes, earthquakes, 
wildfires, and tornadoes have ravaged communities across this 
country. We even saw some disasters as late as last night. 
Throughout all of these disasters, first responders needed 
reliable and resilient emergency communications to conduct 
their lifesaving missions.
    Additionally, citizens need to be alerted as soon as 
possible in order to evacuate, put shelter in place, and take 
other actions recommended by our emergency officials that are 
determined through communications. Simply put, resilient and 
interoperable communications is required to save lives and to 
initiate recovery.
    Unfortunately, gaps still do exist despite our progress 
over the last decade. I hope to learn what steps can we 
continue to take to move forward to resolve these gaps in 
anticipation of future emergencies. Unfortunately, the Office 
of Emergency Communication's role with the Department appears 
to be sometimes muted and based upon working groups lacking the 
ultimate authority to get the job done. Eliminating silos, 
maximizing assets, and streamlining policies requires strong 
authority, as intended by Congress.
    The introduction of broadband provides an advanced and 
innovative tool for first responders. Building a Nation-wide 
interoperable emergency communications network is critical to 
our ability to successfully conduct a multi-jurisdictional 
response operation. I would say that last week in the district, 
I had an opportunity to visit the Beverly Hills Police 
Department that has the ICIS system, and to talk to some of the 
members of RICS as well. As an original cosponsor of the 
Broadband for First Responders Act of 2011, I am proud to 
support this bipartisan legislation that addresses this long 
overdue need.
    I am interested in hearing what role DHS will play in 
support of President Obama's commitment to develop and deploy a 
Nation-wide interoperable wireless network for public safety. I 
am interested also in learning more about the results of the 
test that we recently had, and what interim steps FEMA will 
take to enhance that system.
    Finally, as Congress continues to discuss the Nation's 
fiscal future, we should recognize the importance of building 
and sustaining preparedness capabilities. Draconian cuts 
authorized in the fiscal year 2012 DHS appropriations bill puts 
emergency communication capabilities gained over the last 
decade in jeopardy.
    I would say, for those of you who weren't here earlier for 
the Cybersecurity Subcommittee, we heard that very fact by 
Under Secretary O'Toole. I hope that you would just be as frank 
with us as she was. We need to learn what capabilities have 
been supported by these grant programs and the effects on the 
first responders' response operations if they are to be 
eliminated.
    Again, I thank you all for being here today, and we look 
forward to your testimony as we probably return.
    Mr. Bilirakis. I thank the Ranking Member.
    [The statement of Ms. Richardson follows:]
         Prepared Statement of Ranking Member Laura Richardson
                           November 17, 2011
    Good Morning. I would like to thank Chairman Bilirakis for 
convening this hearing focusing on ensuring coordination amongst DHS's 
several emergency communications offices.
    I would also like to thank the witnesses for their service to the 
country and participation in today's hearing.
    Emergency communications broadly encompasses: Interoperable 
communications, alerts, and warnings, and building resilient networks.
    The Nation has faced several disasters this year that requires for 
us to reaffirm our commitment to improving emergency communications.
    Hurricanes, earthquakes, wildfires, and tornadoes have ravaged 
communities across the country.
    Throughout all of these disasters, first responders needed reliable 
and resilient emergency communications to conduct their life-saving 
missions.
    Additionally, citizens need to be alerted as soon as possible in 
order to evacuate, shelter in place, or take other actions recommended 
by emergency officials.
    Simply put, resilient and interoperable communications is required 
to save lives and initiate recovery.
    Unfortunately, gaps still exists despite progress over the last 
decade. I hope to learn what steps we can take moving forward to 
resolve these gaps in anticipation of future emergencies.
    As a result of the failed Hurricane Katrina response, Congress 
established the Office of Emergency Communications to take a critical 
leadership role working to improve State and local interoperability and 
efforts within the Department.
    Unfortunately, the Office of Emergency Communication's role with 
the Department appears to be muted and based on working groups lacking 
any ultimate authority.
    Eliminating silos, maximizing assets, and streamlining policies 
requires strong authority, as intended by Congress.
    The introduction of broadband provides an advanced and innovative 
tool for first responders.
    Building a Nation-wide Interoperable Emergency Communications 
Network is critical to our ability to successfully conduct a multi-
jurisdictional response operation.
    I am a proud supporter of bipartisan legislation to addresses this 
long-overdue need.
    I am interested in hearing what role DHS will play in support of 
President Obama's commitment to develop and deploy a Nation-wide, 
interoperable wireless network for public safety.
    This committee has had particular interest in the importance of 
emergency alerts and warning. FEMA and the FCC conducted a 
comprehensive outreach campaign to announce last week's inaugural 
Emergency Alert System test.
    Unfortunately, the initial lessons learned indicate that the 
current Emergency Alert System is unable to successfully provide a 
Nation-wide alert.
    This gap in our alert and warning capabilities must be resolved in 
order to ensure that we are ready to provide citizens in every corner 
of the Nation with timely information, if a catastrophic event occurs.
    I am interested in learning more about the results of the test and 
what interim steps FEMA will take to enhance the System.
    Finally, as Congress continues to discuss the Nation's fiscal 
future we should recognize the importance of building and sustaining 
preparedness capabilities.
    Draconian cuts authorized in the fiscal year 2012 DHS 
Appropriations bill puts emergency communication capabilities gained 
over the last decade in jeopardy.
    We need to learn what capabilities have been supported by these 
grant programs and the effects on first responder response operations 
if they are eliminated.
    Again, I thank you all for being here today and I look forward to 
your testimony.

    Mr. Bilirakis. What we will do is we will break for--we 
have three votes, and we will be back in approximately a half 
hour. Thank you for your patience.
    [Recess.]
    Mr. Bilirakis. Thank you very much for your patience. I 
really appreciate it. I think we can get this hearing in, 
hopefully. I know we have other votes expected roughly 3:45, 4 
o'clock. So we will do the best we can.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                           November 17, 2011
    Mr. Chairman, thank you for holding today's hearing on coordination 
of emergency communications within the Department of Homeland Security.
    According to the Congressional Research Service, over the last 10 
years, Congress has appropriated over $13 billion dollars to States and 
local communities to improve emergency communications.
    Despite this funding, interoperability remains a concern for State 
and local homeland security directors, public safety officials, and 
first responders.
    As a former volunteer firefighter, I know that interoperable 
communications can save lives.
    While it appears that much progress has been made, anecdotal 
evidence indicates that many first responders still are unable to 
communicate with each other.
    Communications problems continue between fire and police 
departments within the same county; between police departments in 
neighboring counties; and between fire departments in adjacent towns.
    These communication problems are not new.
    The events of September 11 exposed huge gaps in the 
interoperability of emergency communications equipment within the first 
responder community.
    Four years later, Hurricane Katrina reminded the Nation that the 
gaps exposed by 9/11 remained.
    Congress responded with legislation. We passed the Post-Katrina 
Emergency Management Reform Act (PKEMRA).
    In addition to providing grant funding, PKEMRA created the Office 
of Emergency Communication (OEC) within the Department of Homeland 
Security.
    OEC was given the responsibility of assuring that interoperability 
challenges would be addressed.
    A DHS policy memorandum signed by Secretary Napolitano in 2009 
underscored OEC's responsibility in leading ``DHS efforts to advance 
interoperable emergency communications''.
    Yet I am told that despite this memo, OEC's ability to coordinate 
other DHS agencies is hampered by reorganization within NPPD.
    Mr. Chairman, I hope this hearing can help us determine whether 
this office has the authority it needs to address this Nation's 
continuing interoperability challenge.
    I look forward to hearing about the staffing and support of this 
office and how it is administered under the new NPPD organizational 
structure.
    But while I have concerns about the authority of OEC and its 
ability to reach our interoperability goals, I must also mention that 
the budget cuts to grant funding approved by this House will make it 
virtually impossible for this office or any office to address this 
Nation's continuing interoperability challenge.
    Let me be clear. For fiscal year 2012, the proposed $1 billion 
dollars in funding for first responders is less than half of the fiscal 
year 2010 appropriation.
    In addition to this overall reduction, the bill defunded the 
Interoperable Emergency Communications Grant program (IECGP), which is 
specifically designated to address these problems.
    In essence, this budget will likely spell the end of our 
interoperability efforts.
    Having lived through 9/11 and Katrina, we know what happens when 
fire fighters, police officers, and EMTs cannot talk to each other.
    Congressional hearings and Presidential Commissions confirmed the 
lives lost due to the lack of interoperable radios.
    Despite this evidence and our own memories, my colleagues on the 
other side of the aisle created a budget that asks each of us to ignore 
and forget. We have to forget the first responders of 9/11 and Katrina. 
We have to ignore the likelihood of natural disasters. But mostly, we 
have to forget that interoperable radios save lives.
    Mr. Chairman, I cannot forget and I cannot resolve to do nothing. 
My only hope is that my colleagues on the other side of the aisle 
reconsider.
    I yield back.

    Mr. Bilirakis. Now I would like to welcome our witnesses. 
Our first witness is Mr. Chris Essid. I hope I pronounced that 
right. Mr. Essid is the director of the Office of Emergency 
Communications, a position he assumed in December 2007. In this 
capacity, he is responsible for leading efforts to obtain 
operable and interoperable emergency communications among 
public safety agencies across Federal, State, local, and Tribal 
governments. Prior to joining the Department, Mr. Essid served 
as the first interoperable coordinator for the Commonwealth of 
Virginia. Mr. Essid served as a member of the United States 
Military Police from 2003 to 2008. He holds a master's of 
public administration from the University of Oklahoma, and a 
bachelor's degree in history from the University of Kentucky.
    Following Mr. Essid, we will hear from Mr. John O'Connor. 
Mr. O'Connor is the acting director of the National 
Communications and Cybersecurity Integration Center, and the 
manager of the National Coordinating Center for 
Telecommunications. Mr. O'Connor has been with the National 
Communications System for 20 years, and served previous roles 
involving emergency operations and information technology. Mr. 
O'Connor served as the National Communications System 
representative to FEMA's National Response Coordination Center 
during September 11, during the attacks, and also played a 
response role during Hurricanes Katrina and Rita.
    Our next witness is Mr. Damon Penn. Mr. Penn is the 
assistant administrator of the National Continuity Programs 
Directorate with FEMA. He is currently overseeing the 
development of FEMA's Integrated Public Alert and Warning 
System, known as IPAWS. Mr. Penn joined FEMA in 2004 as a 
defense coordinating officer in Florida. He also served as the 
DCO the following year in support of Mississippi's efforts 
during Hurricane Katrina. Prior to joining FEMA, Mr. Penn 
served more than 30 years with the U.S. Army, holding numerous 
leadership positions. Mr. Penn studied at the U.S. Naval War 
College, earning a master's of arts in national security and 
strategy studies. He also earned a master's of science in 
administration from Central Michigan University in 1993, and a 
bachelor's of science degree in criminal justice from UNC-
Charlotte.
    Following Mr. Penn, we will receive testimony from Mr. Eric 
Edwards. Mr. Edwards is FEMA's Executive Director for Disaster 
Emergency Communications and the Multiple Emergency Response 
Support Program Manager in the Response Directorate. In this 
position, he is responsible for coordinating the development 
and execution of emergency communications doctrine, operational 
plans, policies, and procedures for disaster response 
operations, and leading the MERS detachment during Presidential 
disasters, emergency declarations, National security special 
events, and other incidents of National significance. Prior to 
joining FEMA in August 2004, Mr. Edwards served as an officer 
in the U.S. Army Signal Corps for 2,000 years--I mean for 23 
years. He also has a bachelor's of science degree in journalism 
and communication from my alma mater, the University of 
Florida--go Gators--and a master's degree in financial 
management from Johns Hopkins University. His military 
education includes Air Command and Staff College, U.S. Army 
Command, and General Staff College, Army Management Staff 
College, and Signal Officer basic and advanced courses.
    Finally, we will hear from Ms. Linda Moore. Ms. Moore is a 
specialist in telecommunications and spectrum policy at the 
Congressional Research Service. Ms. Moore joined Congressional 
Research Service in July 2001. At CRS, her current areas of 
expertise include radio frequency spectrum policy, commercial 
wireless communications, and emergency communications, 
including 9-1-1 of course, the Emergency Alert System, and 
radio communications for first responders. Prior to joining 
CRS, Ms. Moore spent more than 20 years in the banking 
industry, where she specialized in new technology and networks 
for electronic banking. Ms. Moore has a B.A. in economics from 
Columbia University and an M.B.A. from Columbia University's 
graduate school of business, where she also pursued 
postgraduate studies in economic theory and public policy.
    Welcome to all the witnesses. Your entire written testimony 
will appear in the record. I ask that you each summarize your 
testimony for 5 minutes.
    We will begin with Mr. Essid. Mr. Essid, you are now 
recognized. Thank you, sir.

    STATEMENT OF CHRIS ESSID, DIRECTOR, OFFICE OF EMERGENCY 
      COMMUNICATIONS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Essid. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, and distinguished Members of the committee. It is a 
pleasure to be here to discuss the Department's collaborative 
efforts to improve communications.
    Public safety must have reliable communications at all 
times to effectively coordinate response and recovery 
operations. The Department recognizes the importance of 
communications is not solely a technology problem to be solved 
with just the right equipment or right technology. Successful 
interoperable solutions also include governance, standard 
operating procedures, training, and exercises, and daily use of 
whatever equipment they are using.
    For example, I have been in neighboring jurisdictions where 
they use the same coded language in one jurisdiction for 
officer needs immediate assistance, and right next door it is 
officer is just taking a break. You can imagine the confusion 
this causes when these two jurisdictions work together. This 
has nothing do with technology. It is clearly a problem that 
can't be solved by purchasing the same radios.
    We have solved hundreds of situations like this by working 
together and increasing the coordination with public safety. 
Each of the DHS witnesses at the table today has unique but 
essential roles in the National effort to ensure emergency 
communications both day-to-day and during an emergency.
    I will discuss how the Office of Emergency Communications, 
or OEC, works to ensure that public safety officials at all 
levels of government can communicate effectively through this 
increased coordination. OEC was established in the wake of 
Hurricane Katrina as part of the Congressional response to the 
communications challenges faced both during that disaster and 
on September 11, 2001. This subcommittee and the full House 
Homeland Security Committee felt it essential to have an office 
to coordinate the numerous programs and efforts across all 
levels of government.
    Since being created, OEC has worked to improve 
interoperable emergency communications, and we have seen 
significant progress in several key areas. A critical part of 
this has been the development and the on-going implementation 
of the National Emergency Communications Plan. Since 2008, OEC 
has been driving implementation of the National plan, and we 
are seeing measurable improvements in building capabilities and 
closing gaps identified in the plan for governance, training, 
and operational procedures.
    A few examples include the creation of State-wide plans, 
State-wide coordinators, and State-wide governance. This has 
improved coordination at the State level, and resulted in 
public safety working together as a community. Through our 
technical assistance program we have provided over 750 on-site 
visits to States and localities to make improvements. OEC has 
trained more than 3,500 police, firefighters, EMS officials 
throughout the Nation to set up communications in a 
standardized way so they do it the same way in California as 
they do it in Florida. The progress made at the State and local 
level has been tremendous.
    Through the implementation of the National plan, we have 
been working to measure the capabilities of public safety 
across the Nation. Last year we achieved Goal 1. The 60 largest 
urban areas showed that they could achieve interoperability 
during a large-scale event. Last week, we released a report on 
the findings from Goal 1. Our office is more than happy to 
provide additional information to Members of the committee on 
the results.
    Currently, OEC is working with States and territories to 
measure Goal 2. This includes collecting data on capabilities 
and performance for more than 3,000 counties Nation-wide. We 
are going to be leveraging the results to better target our 
limited resources. In these challenging budget times, it is 
more important than ever that we align these resources to 
provide the greatest possible impact.
    We are also collaborating efforts to increase coordination 
between the DHS offices and other Federal agencies. For 
example, OEC administers the Emergency Communications 
Preparedness Center to coordinate policy and planning across 
the 14 Federal departments and agencies. One of the biggest 
accomplishments is the development of recommendations for 
common grant guidance to standardize priorities across more 
than 40 separate grant programs. As a former State-wide 
coordinator, I can tell you it is very confusing and 
frustrating when you get a lot of Federal grants and they all 
have different guidance. Common guidance is going to make it 
clear and easier for States to submit grants and understand the 
priorities up front. So we have made significant progress so 
public safety can communicate when needed. Again, it is not 
simply a technology problem. Technologies are going to come and 
go. But by working together to ensure public safety is trained 
on how to use these new technologies, ensure that they have 
standard operating procedures, and ensure that governance is in 
place so that they can coordinate in the community, we have 
increased the ability for public safety to communicate.
    We appreciate the committee's support, and thank you again 
for this opportunity to testify. I would be pleased to answer 
your questions.
    Mr. Bilirakis. Thank you very much. I appreciate it.
    [The joint prepared statement of Mr. Essid and Mr. O'Connor 
follows:]
       Joint Prepared Statement of Chris Essid and John O'Connor
                           November 17, 2011
                              introduction
    Thank you Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the committee. It is a pleasure to discuss the 
Department of Homeland Security's (DHS) collaborative efforts to 
improve communications for emergency response providers and Government 
officials. Ten years after the attacks of September 11, 2001, there is 
no shortage of reminders of the need for an effective and efficient 
emergency response framework to manage incidents and restore essential 
services in the aftermath of a disaster.
    A top priority for DHS is improving the communications capabilities 
of those who are often the first to arrive at the scene of a disaster 
site--the Nation's emergency responders. Public safety personnel must 
have access to reliable and instantaneous communications at all times 
to effectively coordinate response and recovery operations. The 
Department recognizes that establishing emergency communications is not 
solely a technology problem that can be solved with just the ``right'' 
equipment or the ``right'' communications system. All of the critical 
factors for a successful interoperability solution--governance, 
standard operating procedures, training and exercises, and integration 
of systems into daily operations as well as technology--must and are 
being addressed through the collective work of our programs.
    Further, DHS believes that effective emergency communications 
requires continued partnering with the millions of emergency responders 
that are the first to arrive on the scene of an incident, as well as 
the communications industry, non-Governmental organizations, the 
general public, and citizens of affected communities. We look forward 
to discussing our respective efforts and key accomplishments to make 
the Nation more prepared in an all-hazards environment.
               emergency communications responsibilities
    Within the National Protection and Programs Directorate's (NPPD) 
Office of Cybersecurity and Communications (CS&C) are two organizations 
that focus on different but converging areas of telecommunications in 
support of emergency operations: The Office of Emergency Communications 
(OEC) and the National Communications System (NCS). OEC and NCS are 
critical to shaping National policy and both work with other DHS 
Components, Federal departments and agencies, multiple levels of 
government, and the private communications sector to improve 
capabilities and achieve mission requirements.
    OEC was established as part of the Congressional response to the 
communications challenges faced during the September 11, 2001, 
terrorist attacks and Hurricane Katrina in 2005. OEC coordinates policy 
and assists in the development and implementation of operable and 
interoperable emergency communications capabilities for emergency 
responders at all levels of government, including Federal, State, 
local, Tribal, and territorial. OEC also led the development of the 
first National Emergency Communications Plan (NECP).
    The NCS, transferred from the Department of Defense to DHS in 2003, 
was created by Executive Order under President Kennedy to support the 
telecommunications functions of the Executive Office of the President 
and all Federal departments and agencies for Continuity of Government, 
Enduring Constitutional Government, and Continuity of Operations. 
Today, the NCS is an interagency system comprised of the 
telecommunications assets of 24 Federal departments and agencies, each 
with significant operational, policy, regulatory, and enforcement 
responsibilities. The NCS coordinates telecommunications preparedness, 
response, and restoration activities across its 24 member agencies 
through the NCS Committee of Principals, which consists of senior 
Government officials from each of the 24 member agencies, ensuring a 
diverse representation across the NCS that includes the full range of 
Federal telecommunications assets. The NCS also coordinates responses 
with stakeholders through the National Security Telecommunications 
Advisory Committee (NSTAC) and the National Coordination Center.
                   office of emergency communications
    The creation of OEC was an important step toward improving the 
communication capabilities of those who are often the first to arrive 
at the scene of an incident--the Nation's emergency responders. 
Inadequate emergency communications have been a critical gap in our 
Nation's preparedness, and previous efforts to address this issue were 
hampered by the lack of a strong partnership between the Federal 
Government and the public safety community. In addition, the Nation 
lacked an overarching strategy to guide emergency communications 
planning and build capabilities at all levels of government.
    In the last 4 years, OEC has worked to fill many of these and other 
gaps, and we are seeing progress in several key areas that enable 
emergency responders to interoperate in an all-hazards environment. As 
part of its mission, OEC led a comprehensive Nation-wide planning 
effort with more than 150 stakeholders from the emergency response 
community to develop the NECP. This included significant feedback and 
coordination with the SAFECOM Executive Committee, the SAFECOM 
Emergency Response Council, and the National Public Safety 
Telecommunications Council. The SAFECOM Executive Committee and 
Emergency Response Council are comprised of National public safety 
association members, State and local emergency responders, and 
representatives within Federal agencies. These stakeholder groups 
represent the interests of millions of emergency responders, as well as 
the State and local governments that public safety communications 
serves. Involving these groups from the beginning ensured that the plan 
took stakeholders' input into account and would be widely accepted in 
the public safety community.
    In the 3 years since it was released, the NECP has been 
instrumental in defining communication priorities for public safety 
personnel at all levels of government. OEC has been driving 
implementation of the NECP in coordination with its Federal, State, and 
local partners, and we are seeing measurable improvements with building 
capabilities and closing gaps identified in the plan for governance, 
training, operating procedures, and others, including:
  <bullet> Enhanced State-wide Coordination.--The creation of State-
        wide Communication Interoperability Plans (SCIPs), State-wide 
        Interoperability Coordinators (SWICs) and State-wide 
        Interoperability Governing Bodies (SIGBs) has improved 
        coordination of emergency communications activities and 
        investments throughout all 56 States and territories. Through 
        the SCIP development and updating process, the SWICs, in 
        collaboration with their SIGBs, have been effective in helping 
        States define their communications needs and future investments 
        and ensuring that Federal funding is directed where it is 
        needed most. In addition, OEC has conducted over 135 workshops 
        during the past 3 years to assist States as they implement and 
        update their SCIPs.
  <bullet> Common Plans, Protocols, and Procedures.--The use of 
        standardized plans and procedures is driving improved command, 
        control, and communications among emergency responder agencies 
        in the field. To facilitate this, OEC and the Federal Emergency 
        Management Agency (FEMA) have worked with more than 140 
        jurisdictions, including Urban Area Security Initiative (UASI) 
        regions, to develop Tactical Interoperable Communications Plans 
        that document formalized interoperability governance groups, 
        standardized policies and procedures, and emergency 
        communications equipment inventories. States continue to 
        develop these communications plans to cover additional regions.
  <bullet> Targeted Technical Assistance.--OEC has implemented a 
        technical assistance strategy to ensure that all States and 
        territories can request and receive its targeted, on-site 
        emergency communications assistance, while also focusing 
        support on the States and urban areas most in need. These 
        offerings are tailored to support the priorities in each 
        State's or territory's SCIP and the objectives of the NECP. 
        Since 2008, the 56 States and territories have combined to 
        request more than 750 individual technical assistance services 
        from OEC for support with the development of governance 
        structures, tactical and strategic planning, and a variety of 
        engineering services.
  <bullet> Increased Training Opportunities.--OEC has developed 
        Communications Unit Leader (COML) and Communications Technician 
        (COMT) courses to improve emergency responders' proficiency 
        with communications equipment and to assist them with 
        coordinating roles and responsibilities during an incident or 
        event. The COML program has been embraced by emergency 
        responders Nation-wide, and OEC has trained more than 3,500 
        responders, technicians, and planners to lead communications at 
        incidents across the Nation, including local floods, blizzards, 
        and wildfires. Trained COMLs have also contributed to recovery 
        efforts throughout the United States, including the recent 
        outbreak of tornados and massive flooding in the Midwest and 
        Southeast.
  <bullet> Enhanced Border Communications and Coordination.--OEC has 
        been actively working with our international partners at the 
        Northern and Southern Borders to improve cross-border 
        interoperable communications planning, policy development, and 
        operations communications. DHS recently awarded $25 million in 
        grant funding to States and local communities under the Border 
        Interoperability Demonstration Project--a one-time competitive 
        grant program focused on developing innovative solutions to 
        strengthen interoperable emergency communications along the 
        U.S. borders with our partners in Canada and Mexico.
  <bullet> Improved Governance and Coordination.--OEC is working with 
        Federal, regional, State, and local agencies to increase 
        coordination, information sharing, and oversight of 
        interoperability through formal governance structures and 
        partnerships. For example:
    <bullet> SIGBs have been created in every State and territory and 
            include representatives from all levels of government to 
            coordinate and support State-wide interoperability. The 
            State of Indiana, for example, has implemented an effective 
            governance process for emergency communications through the 
            State-wide Interoperability Executive Committee, which also 
            serves as an advisory group to the State's Integrated 
            Public Safety Commission. Many States have also implemented 
            Regional Interoperability Committees to provide insight 
            into the State-wide strategy from an operational 
            perspective.
    <bullet> OEC continues to receive insightful feedback and input 
            from responders, associations, and emergency communications 
            professionals through the SAFECOM Executive Committee, 
            SAFECOM Emergency Response Council, and the newly-chartered 
            National Council of State-wide Interoperability 
            Coordinators.
    <bullet> OEC recently instituted a Regional Coordination Program to 
            strengthen collaboration and knowledge sharing with our 
            stakeholders. OEC has established a Regional Coordinator in 
            each of the 10 FEMA Regions, and they regularly participate 
            in the SIGBs, the UASI interoperability meetings and their 
            respective FEMA Regional Emergency Communications 
            Coordination Working Groups.
    By focusing on these core capabilities--planning, governance, 
training, interagency coordination, and technology support--emergency 
response agencies are becoming more equipped to establish and maintain 
interoperable communications during response and recovery activities.
                  collaboration with federal partners
    In addition to the extensive progress made to improve emergency 
communications at the State, local, and Tribal level, the Department, 
through OEC, is coordinating efforts to improve emergency 
communications among DHS Component offices and other Federal agencies.
    OEC operates the Emergency Communications Preparedness Center 
(ECPC) to coordinate policy, planning, and administration of emergency 
communications across 14 Federal departments and agencies. The ECPC 
provides an inter-departmental mechanism to coordinate common 
solutions, streamline development of policy and plans, and jointly 
engage State, local, and Tribal partners. The ECPC has achieved early 
successes through defining a strategic agenda that reflects shared 
member priorities and establishes issue-specific focus groups to drive 
immediate action. Key accomplishments include: (1) Coordinated inputs 
on National policy, such as Federal agency comments on the Federal 
Communications Commission's (FCC) National Broadband Plan; (2) 
developed and published recommendations for common Federal grant 
guidance to synchronize emergency communications spending across more 
than 40 grant programs; (3) initiated efforts to drive capability and 
resource sharing through mapping and analyzing existing Federal 
communications resources; and (4) implemented a clearinghouse 
capability and data repository to yield improved information sharing 
and coordination.
    OEC also administers the One DHS Emergency Communications 
Committee, which aims to improve internal coordination of policy and 
planning across DHS Components with emergency communications missions. 
This committee provides a vital mechanism for maximizing the efficiency 
and effectiveness of the Department's emergency communications 
investments and activities. The One DHS Committee reached its most 
significant milestone in June 2011 with the creation of the unified One 
DHS Emergency Communications Strategy. The Strategy establishes a 
common vision ``to ensure access to and exchange of mission-critical 
information across the Homeland Security Enterprise anywhere, anytime, 
through unified capabilities.'' It also sets goals for coordinating and 
improving emergency communications architecture, investment, 
governance, and operations.
    OEC has worked closely with FEMA through the Disaster Emergency 
Communications Division to ensure State and local agencies have the 
capability to communicate during disaster response. OEC has supported 
the Regional Emergency Communications Coordination Working Groups 
(RECCWGs) for the past 4 years. OEC's Regional Coordinators participate 
on the RECCWGs and bring together Federal, State, and local governments 
in their region.
    OEC also collaborates with FEMA GPD to ensure that grant funding is 
aligned with applicable National and State strategies.
    OEC works closely with NCS on several initiatives such as the 
Government Emergency Telecommunication System (GETS) and Wireless 
Priority Services (WPS) and provides support to the National 
Coordinating Center for Telecommunications (NCC) during emergencies. In 
addition, OEC provides support during a Federally-declared disaster 
when Emergency Support Function (ESF) No. 2 is activated. ESF No. 2 is 
the support function to restore commercial telecommunications and 
provide tactical communications support during incidents. OEC Regional 
Coordinators are deployed either to the FEMA Regional Response 
Coordination Center or to an Incident Management Action Team (IMAT) in 
the affected area.
    Recently, OEC partnered with both NCS and FEMA to support the 
response to Hurricane Irene. Four of OEC's Regional Coordinators were 
deployed to support ESF No. 2. The Regional Coordinators supported many 
tasks throughout the Hurricane response, but the most valuable role 
they served was using their strong intergovernmental relationships and 
a localized knowledge base of the Regions in which they work. Because 
the Regional Coordinators work with stakeholders every day, they have 
an in-depth understanding of the needs of different communities across 
their Regions. Counterparts at FEMA noted the importance of these 
relationships during the response and recommended the Regional 
Coordinators work directly with the States as a government liaison 
across multiple levels of government. Collaboration with stakeholder 
partners at all level of government is essential to carrying out OEC's 
mission and the impact of this collaboration was demonstrated during 
the Hurricane Irene response. OEC will continue to support NCS and FEMA 
in future ESF No. 2 responses.
                         necp goal assessments
    Implementation of the NECP has been a key driver behind much of our 
progress in improving interoperability. More than 85 percent of the 
NECP milestones have been achieved to date and progress is evident in 
all of the NECP priority areas, such as governance, training, and 
coordination.
    To move the Nation closer to allowing all emergency responders to 
communicate as needed, OEC is engaged in a comprehensive, Nation-wide 
assessment of emergency communications capabilities as it implements 
the NECP Goals. When complete, this assessment will provide a detailed 
view of capabilities at the county or county-equivalent level in all 56 
States and territories. This detailed look at emergency 
communications--the first of its kind--will generate valuable data for 
both DHS and the States to use to more effectively and efficiently 
focus future resources and improvement activities.
    OEC recently completed the measurement of Goal 1 of the NECP, which 
focused on emergency communications capabilities in the Nation's 
largest cities. To measure NECP Goal 1, OEC worked with the UASI 
regions to assess their ability to demonstrate response-level emergency 
communications during a real-world event in each region. This approach 
enabled OEC to evaluate their use of emergency communications in real-
world settings and in an economically efficient manner.
    The results of this evaluation have been encouraging. Based on the 
capabilities documented at each Goal 1 event, UASIs were able to 
demonstrate the ability to establish response-level emergency 
communications in accordance with NECP Goal 1. This illustrated how the 
significant organizational and technical investments made by the UASIs 
have improved their emergency communications capabilities in recent 
years. In fact, OEC saw measurable improvements over key gaps 
identified in the previous DHS assessment of these urban areas in 2007, 
the Tactical Interoperable Communications Scorecards report. Some of 
these areas of progress were the result of DHS programs and funding, 
including the following:
  <bullet> Grants.--The NECP Goal 1 results showed an increase in the 
        number of UASI regions using Project 25 (P25) digital radio 
        standards-based systems, which are designed to allow 
        interoperability regardless of equipment vendor. The 
        implementation of P25 systems has been a provision in DHS grant 
        guidance for several years, including the SAFECOM grant 
        guidance and the Public Safety Interoperable Communications 
        Grant Program.
  <bullet> Training and Technical Assistance.--As previously discussed, 
        OEC offers a COML training program that has trained more than 
        3,500 responders, technicians, and planners to lead 
        communications at incidents across the Nation. This program 
        began in part as a response to gaps identified in the 2007 DHS 
        Tactical Interoperable Communications Plans Tactical 
        Interoperable Communications Plan (TICP) Scorecard assessment, 
        specifically the lack of trained COMLs. During the NECP Goal 1 
        events, OEC found that a large majority of the UASI regions had 
        assigned DHS-trained COMLs to handle planning and implementing 
        multi-system communications for the event.
  <bullet> Exercises.--Almost all UASI regions reported that agencies 
        within their regions are now holding communication-specific 
        exercises, and approximately half of them reported that the 
        agencies are holding these exercises on a regular basis. This 
        represents significant progress over similar findings from the 
        DHS TICP report in 2007, which concluded that ``almost no 
        [UASI] region had completed a communications-focused exercise 
        before the TICP validation exercise.''
    OEC is currently in the process of implementing a Goal 2 
measurement, which calls for an assessment of emergency communications 
performance and capabilities at the county-level (or county-equivalent 
level, such as parishes in Louisiana). This is a large undertaking, as 
there are more than 3,000 counties in the United States. OEC is working 
closely with the States and territories to complete this assessment by 
the end of this year and will be following up with them on how to use 
the results to update their SCIPs and more effectively utilize 
resources. From a DHS perspective, we believe the NECP Goals assessment 
will generate much-needed capability data to more strategically direct 
Federal and State emergency communications resources--including grant 
funds and technical assistance support--to where they are needed most.
                    public safety broadband network
    Over the last decade, our Nation has made critical strides in 
strengthening overall security and National preparedness. The public 
safety community also has made significant progress improving emergency 
communications capabilities through enhanced coordination, planning, 
training, and equipment.
    However, we have been limited by wireless technologies that were 
introduced decades ago. To fully achieve the vision of the 9/11 
Commission, emergency responders must have an advanced, Nation-wide, 
interoperable, public safety communications network. Recent 
developments in high-speed, wireless communications technology 
represent a new opportunity for emergency responders to have 
significantly greater operability, interoperability, and capability.
    These broadband advancements can provide emergency responders with 
access to information that will improve their ability to safely and 
efficiently manage their daily activities and respond to all levels of 
emergency situations. For example, as President Obama stated in his 
State of the Union Address, these advancements can enable a firefighter 
to use a handheld device to download the design of a building before 
arriving at the scene of an emergency. These types of capabilities have 
the potential to save countless lives. That is why the administration 
has been coordinating with the public safety community, the private 
sector, and Congress to promote initiatives for the deployment and 
development of a Nation-wide Public Safety Broadband Network.
    Earlier this year, President Obama outlined his commitment to the 
development and deployment of such a network for public safety, a key 
recommendation from the 9/11 Commission Report. The administration's 
program in support of such a network is a component of its Wireless 
Innovation and Infrastructure Initiative, which was outlined in its 
fiscal year 2012 budget. The public safety elements of the Initiative 
include an accounting for the foregone auction revenues resulting from 
reallocation of the D Block for use in the public safety broadband 
network; $7 billion in direct financial support for network deployment; 
$500 million for development and testing of broadband public safety 
requirements, standards, and software applications (to be administered 
through the National Institute of Standards and Technology); and $5 
billion for support to rural broadband services, including public 
safety services.
    The administration is fully committed to working with Congress to 
ensure the passage of legislation that meets the critical National need 
of establishing a public safety broadband network. We appreciate the 
bipartisan Congressional leadership on this issue that crosses 
committees of jurisdiction, including Chairman King and Ranking Member 
Thompson. We are confident that through continued cooperation with 
Congress, we can deliver a network that meets the needs of America's 
first responders whom all Americans rely upon.
    OEC has been extremely active in support of the President's 
Wireless Innovation and Infrastructure Initiative and helping prepare 
the Nation's responders for the deployment of broadband. OEC has worked 
closely with its Federal partners at the Departments of Commerce and 
Justice, as well as the FCC, to help set the broad policy framework for 
the planned network, and has coordinated with its State and local 
partners to ensure the public safety community's requirements are fully 
represented in network broadband planning and implementation efforts. 
More specific examples include the following OEC broadband-focused 
programs and activities:
  <bullet> Policy and Planning.--OEC is preparing an addendum to the 
        NECP for release later this year that will identify key 
        broadband challenges and recommend near-term actions to foster 
        the integration of broadband technologies and data 
        capabilities. This addendum also will propose further measures 
        to support current interoperability efforts and to maintain 
        existing Land Mobile Radio communications capabilities until 
        broadband technologies can support mission-critical 
        communications for first responders.
  <bullet> Outreach and Coordination.--OEC is working with all of its 
        stakeholder groups--including the SAFECOM Executive Committee 
        and Emergency Response Council, National Council of State-wide 
        Interoperability Coordinators, ECPC, and the One DHS Committee 
        on Emergency Communications Committee--to ensure the views and 
        requirements of the public safety community are fully 
        represented in broadband planning and implementation efforts.
    <bullet> OEC supports outreach efforts related to the development 
            and deployment of a Nation-wide public safety broadband 
            network to include operational requirements, funding, 
            standards, spectrum requirements, and governance. This 
            includes support for an Innovation Roundtable with 
            representatives from Government, associations, public 
            safety, and industry. OEC is also supporting a committee of 
            jurisdictions that received FCC waivers for early 
            deployment of 700 MHz broadband systems as they begin their 
            efforts to build networks. Through these efforts, OEC is 
            continuing to emphasize the need for planning and good 
            governance, since these elements of emergency 
            communications have yielded progress to date.
    <bullet> OEC continues to coordinate with the emergency response 
            community, preparing wireless broadband guidance documents 
            for SWICs, urban area and regional interoperability 
            coordinators, public officials and executives, and 
            emergency responders to support current NECP initiatives on 
            interoperability planning. OEC also continues to provide 
            emergency response stakeholders up-to-date and 
            comprehensive information about wireless broadband in the 
            emergency response environment. In addition, OEC is working 
            with States and jurisdictions to incorporate broadband 
            initiatives into the SCIPs.
    <bullet> To increase coordination of Federal efforts for broadband 
            implementation, the ECPC is working to identify Federal 
            broadband requirements, preparing a consolidated view of 
            emergency communications assets, addressing associated 
            legal and regulatory barriers, developing Departmental 
            positions on pending broadband regulatory matters and 
            rulemakings, and establishing standardized grant guidance 
            and processes. The ECPC has identified the development of 
            broadband standards and research and development as one of 
            its strategic priorities for the coming year.
    <bullet> Concurrently, the One DHS Emergency Communications 
            Committee is providing consolidated Departmental input into 
            Federal interagency efforts, as well as developing 
            strategies for broadband technology migration (i.e., 
            transition from current land mobile radio technology).
    <bullet> Under the strategy and policy direction of the One DHS 
            Emergency Communications Committee, DHS has initiated a 
            joint program management office to capture and implement 
            Department-wide broadband requirements to develop a next 
            generation tactical communications mobile platform for 
            voice, data, and video. This approach will align with both 
            commercial broadband technologies and public safety 
            roadmaps to ensure cost efficiency and interoperability 
            with Federal, State, local, and Tribal partners.
  <bullet> Grants.--OEC's current SAFECOM grant guidance, which 
        includes input from State, local, territorial, and Tribal 
        responders, contains a number of key provisions pertaining to 
        broadband deployment. Further, the ECPC Recommendations for 
        Federal Agencies: Financial Assistance for Emergency 
        Communications, a document for Federal emergency communications 
        grant programs, includes updated guidance concerning the 
        deployment of the Nation-wide Public Safety Broadband Network.
  <bullet> Technical Assistance.--OEC has developed a wireless 
        broadband technical assistance offering for 2011 to assist 
        State, local, territorial, Tribal, and regional users develop 
        and improve their use of broadband technology in line with the 
        vision of a Nationally interoperable network. The offering is 
        tailored for each jurisdiction and provides informational 
        briefings, governance models and standard operating procedures, 
        project planning, and engineering support.
    In addition, NCS provides technical advice to OEC regarding 
communications standards to ensure the proposed public safety network 
is interoperable with the commercial communications networks. NCS also 
ensures that the priority functions for National security emergency 
preparedness function seamlessly as they operate between the networks.
                     national communications system
    Since its inception, NCS has developed programs and services to 
address the unique communications challenges associated with 
communications divestiture, deregulation, and communication resilience 
against all hazards.
    As the coordinator for Emergency Support Function No. 2 (ESF-2)--
Communications, under the National Response Framework, NCS coordinates 
Government and industry during planning for and response to disasters 
and major outages. The operational arm for communications activities is 
the 24/7 National Coordinating Center (NCC) for Communications. It 
coordinates emergency response and recovery operations supporting the 
National Response Framework by coordinating with the 26 departments and 
agencies as members of the NCS and with 56 private communications 
companies who are members of the NCC. The NCC is, and has been, a 
consistent coordinating mechanism for coordinating efficient 
communications restoration and recovery activity for more than 25 
years. The NCC also coordinates the communications assets of the NCS 
members to provide communications assistance during disasters (man-made 
or natural). During a response, the NCC also provides requirement 
priorities to industry partners. NCS also manages Government-industry 
partnerships to assist decision-makers in understanding the risks to 
the Communications Sector. NCS is the Sector-Specific Agency for the 
Communications Sector and coordinates Government and industry partners 
under the Critical Infrastructure Protection Advisory Committee Act to 
reduce communications sector risk. NCS also manages the President's 
NSTAC, which currently comprises 27 Chief Executive Officer-level 
members from communications, information technology, and defense 
corporations. Most recently, the NSTAC examined four scenarios designed 
to stress future 2015-level networks, and provided the President with 
recommendations for technology enhancements and Government investments 
that would provide the best network resilience and recovery.
    NCS capabilities include the following:
  <bullet> Operational Activities.--NCS develops and maintains National 
        security and emergency preparedness (NS/EP) communications 
        priority services programs, such as GETS and WPS, which provide 
        users with priority on commercial networks. The GETS program is 
        a White House-directed emergency telecommunications service 
        managed by NCS. GETS supports over 274,000 Federal, State, 
        local, and Tribal government, industry, and non-governmental 
        organization personnel in performing their NS/EP communications 
        missions by providing a robust mechanism to complete calls 
        during network congestion from anywhere in the United States. 
        Specifically, GETS provides 90 percent or more call completion 
        rates when network call volume is up to eight times greater-
        than-normal capacity. For example, approximately 10,000 GETS 
        calls were made with a 95 percent success rate during the 9/11 
        attacks, and 1,231 GETS calls were made with a 90 percent or 
        more success rate during the 2003 Blackout.
    WPS is a Nation-wide program that provides priority NS/EP 
telecommunications via selected commercial wireless carriers. This 
program enhances the ability of 108,000 NS/EP subscribers to complete 
calls through a degraded public switched telephone network during a 
crisis or emergency situation. WPS calls receive the next available 
radio channel during times of wireless congestion and helps to ensure 
that key NS/EP personnel can complete critical calls by providing 
priority access for key leaders and supporting first responders. WPS 
service provides authorized cellular users with the ability to have 
priority within the public switched telephone network as well as access 
to priority channels.
    The Telecommunications Service Priority (TSP) Program authorizes 
and provides priority treatment of NS/EP telecommunications services. 
The TSP Program provides service providers with an FCC mandate for 
prioritizing service requests by identifying those services critical to 
NS/EP. For example, a telecommunications service with a TSP assignment 
will receive priority by the service vendor before a non-TSP service. 
The TSP Program has two components: Restoration and provisioning. A 
restoration priority applies to telecommunications services to ensure 
restoration before any other services. A provisioning priority is 
obtained to facilitate priority installation of new telecommunications 
services in response to an emergency. In addition to daily operations, 
TSP Program Office personnel are notified of Presidentially-declared 
disasters; activation of the National Response Framework, ESF-2; and 
Continuity of Operations and Continuity of Government (COOP/COG) plans. 
TSP Program Office personnel are on call 24/7. TSP can save days to 
weeks on the time required to return wireline voice/data services, and 
there are more than 200,000 active TSP circuit assignments in support 
of NS/EP communications.
    NCS continues to integrate GETS and WPS services across evolving 
networks. NCS works with industry to enhance and assure these priority 
programs are compatible with Next Generation Network (NGN) technology.
    The Modeling, Analysis, and Technology Assessments team provides 
expertise in modeling and analyzing current and future protocols, 
algorithms, network designs, and capabilities that will impact priority 
service communications in legacy and NGNs. The modeling team also 
maintains a suite of specialized infrastructure analysis tools to 
provide critical infrastructure risk assessments for the communications 
sector in the event of a man-made or natural disaster. The assessments 
consist of the following:
  <bullet> Providing technical analysis of current and next generation 
        communications systems, new technologies, physical and logical 
        architectures, and products related to communications network 
        infrastructures.
  <bullet> Determining new and emerging communications technologies 
        under various congestion and failure conditions to identify 
        vulnerabilities and predict performance of existing and next 
        generation networks.
  <bullet> Developing products to be used for COOP/COG functions during 
        disaster response related to Federal, State, local, and Tribal 
        governments.
  <bullet> Standards Activities.--The NCS Standards Team is an active 
        leader and contributor to various National and international 
        standards-developing organizations, ensuring industry-wide 
        adoption of non-proprietary solutions for NS/EP preparedness 
        telecommunications requirements.
    The Team provides leadership and representation in standards bodies 
        to recommend standards that, when implemented in Internet 
        Protocol-based networks, will provide capabilities to ensure 
        National, State, and local leaderships' ability to communicate 
        during times of crisis. The Third Generation Partnership 
        Project is focused on the technical aspects associated with 
        provisioning priority services in Long-Term Evolution networks 
        and is being pursued under the enhanced Multimedia Priority 
        Service project. In cooperation with the Alliance for 
        Telecommunications Industry Solutions (ATIS), NCS is developing 
        an End-to-End Next Generation Network GETS Service Call Flow 
        Standard that specifies end-to-end call flows. ATIS is also 
        developing the baseline text for an Emergency 
        Telecommunications Service wireline access requirements 
        standard, which details the network element requirements for 
        access in support of Digital Subscriber Line, Cable, Fiber, and 
        Metro Ethernet.
  <bullet> National Response Planning.--NCS is working with Federal, 
        regional, State, and local agencies to increase communications 
        coordination, information sharing, and oversight of emergency 
        preparedness activities to improve response to man-made and 
        natural disasters. NCS works with these entities to ensure a 
        coordinated response through formal governance structures and 
        partnerships.
                               conclusion
    The Department appreciates the committee's support for our 
interoperable emergency communications activities. Thank you again for 
this opportunity to testify. I would be pleased to answer your 
questions.

    Mr. Bilirakis. Now we will hear from Mr. O'Connor for 5 
minutes. You are recognized, sir.

  STATEMENT OF JOHN O'CONNOR, MANAGER, NATIONAL COORDINATING 
  CENTER FOR COMMUNICATIONS, NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. O'Connor. Thank you, Chairman Bilirakis, Ranking Member 
Richardson, and Members of the committee. I am happy to be here 
today to represent my organization, the National Communication 
System, and discuss how we work with our colleagues here at the 
table, those across Government, and industry partners to 
provide emergency communications.
    As Chris mentioned, our respective organizations bring a 
unique set of capabilities to ensure communications, 
particularly during time of an emergency. The main functions of 
the National Communications System are coordination and 
prioritization. In our coordination role, we work with 
Government partners and private-sector owner and operators to 
determine what may be damaged and how best to fix and recover 
during a disaster. As you know, this infrastructure is the 
infrastructure used by the general public to call 
9-1-1 and also to dial loved ones. It is also the same 
infrastructure that is utilized by emergency responders and 
Government leaders to coordinate response activities.
    Regarding our prioritization role, the NCS develops and 
manages technical enhancements to the public network which 
allow key leaders to place prioritized phone calls during times 
of congestion that are often experienced after disasters. As 
the coordination focal point, the NCS provides 24 by 7 
vigilance via our operational arm, the National Coordinating 
Center, to respond, restore, and reconstitute National 
emergency and preparedness communications services and 
facilities.
    The NCS is also the focal point for the NCS executing its 
responsibilities for Emergency Support Function No. 2 under the 
National response framework when activated by FEMA. Today, 24 
Federal departments and agencies and 55 private-sector entities 
come together at the NCC to coordinate response, minimize the 
loss of life, and mitigate potential cascading effects across 
the United States public network.
    This Government and industry partnership is the framework 
the NCS has utilized for over 25 years, and was the same 
framework that was successfully leveraged by USAID in response 
to the earthquake in Haiti. During 2010 and 2011, the NCS and 
its partners have resolved communications congestion, outages, 
and restoration issues for a number of natural disasters. 
Specifically, we have been involved with the Japan earthquake 
and tsunami, flooding in the Mississippi and Red River Valleys, 
tornadoes across the Midwest and the East, wildfires, and 
Hurricane Irene.
    As a recent success story that demonstrates the 
collaboration and expertise by my DHS partners here at the 
table, I would like to go into a little detail about the 
response that we provided most recently to Connecticut during 
the winter storm. FEMA, through its Disaster Emergency 
Communications representative, provided on-scene initial 
assessment and regional interaction with Connecticut officials. 
Based on this assessment and interaction, they determined it 
was necessary to activate the NCS in its ESF-2 role. The NCS in 
this function reached out to our industry partners to begin to 
gauge an assessment of what was happening in the public 
networks, and also activated a representative from Chris' shop 
to go and stand guard and duty at the State of Connecticut's 
Emergency Operations Center. From these actions, the Federal 
team was able to satisfy Connecticut's desire to understand the 
impact on the wireless networks. Also, we were able to impart 
to them the lack of fuel as a limiting factor for continuing to 
maintain the wireless networks. Based on this coordination, a 
plan was brokered that allowed a private sector entity to use 
the fuel depots in the State of Connecticut, thereby supporting 
the Governor's desire to maintain the wireless networks and to 
host 9-1-1 services for his population.
    Some information on our priority programs: In addition to 
ensuring that a baseline infrastructure exists, the NCS has 
instituted programs that allow for prioritizing traffic across 
the infrastructure. The need for this functionality was 
demonstrated during the Cuban Missile Crisis, when President 
Kennedy had difficulty reaching his Cabinet members and other 
key Government officials. My organization was subsequently 
created to ensure that future Presidents do not face the same 
challenge.
    Two programs developed and managed by the NCS include the 
Government Emergency Telecommunications Service, or GETS, which 
provides priority calling on wireline networks, and the 
Wireless Priority Service complement, which provides priority 
calling on wireless networks. Both programs enhance the 
probability of call completion during times of congestion. The 
programs are available to Federal, State, local, Tribal, and 
territorial governments, as well as industry partners and non-
Governmental emergency response organizations. GETS currently 
has in excess of 274,000 users, and the Wireless Priority 
Service has 100,000-plus users.
    In conclusion, while we realize there is always room for 
improvement. In my 21 years of experience with the NCS, and as 
evidenced by our response in Connecticut, collaboration across 
the Government and industry has never been stronger.
    Again, I thank you for the opportunity to testify today, 
and I am happy to answer any of your questions.
    Mr. Bilirakis. Thank you very much.
    I also want to tell the presenters, I appreciate you 
keeping within the 5-minute rule as well. You have.
    Now we will recognize Administrator Penn. You are 
recognized for 5 minutes, sir.

  STATEMENT OF DAMON PENN, ASSISTANT ADMINISTRATOR, NATIONAL 
    CONTINUITY PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Penn. Thank you, Mr. Chairman. Good afternoon. Ranking 
Member Richardson, good afternoon to you, ma'am, and Members of 
the subcommittee.
    It is a real honor to be here today before you on behalf of 
FEMA to discuss our emergency communications capabilities and 
our collaboration with our partners. FEMA is continuously 
working with its partners at DHS, private industry, other 
Federal agencies, our State, local, and tribal governments to 
improve the capabilities and interoperability of emergency 
communications. This whole community effort also includes 
innovations in the way we send and receive information to and 
from the public before, during, and in the wake of disasters.
    In our testimony today, Mr. Edwards will discuss the 
activities of FEMA's Disaster Emergency Communications Division 
and its work with our Federal and State partners, and I will 
provide some recent developments and key updates in the 
Integrated Public Alert and Warning System, or IPAWS, and our 
National Emergency Alert System test that we conducted last 
week. I will also share how we use social media tools and 
transform the way we communicate with the American public, and 
how FEMA is dedicated to employing cutting-edge technology and 
leveraging the whole community to increase our effectiveness 
and emergency communications.
    So at this time I will turn this over to Disaster Emergency 
Communications with Mr. Edwards.
    [The joint prepared statement of Mr. Penn and Mr. Edwards 
follows:]
        Joint Prepared Statement of Damon Penn and Eric Edwards
                           November 17, 2011
                              introduction
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee. I am Damon Penn, Assistant 
Administrator for National Continuity Programs of the Federal Emergency 
Management Agency (FEMA). With me today is Eric Edwards, Director of 
FEMA's of the Federal Emergency Management Agency (FEMA) Disaster 
Emergency Communications Division. It is an honor to appear before you 
on behalf of FEMA to discuss our emergency communication capabilities 
and collaboration with Federal partners.
    FEMA is continuously working with its partners at DHS, private 
industry, other Federal agencies, State, local, and Tribal governments 
to improve the capability and interoperability of emergency 
communications. This Whole Community effort also includes innovations 
in the way we send and receive information to the public before, 
during, and in the wake of disasters.
    In our testimony today, Eric will describe the activities of FEMA's 
Disaster Emergency Communications Division (DECD) and its work with 
other Federal and State partners. I will provide recent developments 
and key updates in the Integrated Public Alert and Warning System 
(IPAWS) program and our National Emergency Alert System (EAS) test. I 
will also share how our use of social media is transforming the way we 
communicate with the American public. FEMA is dedicated to employing 
cutting-edge technology and leveraging the Whole Community to increase 
the effectiveness of emergency communications.
           disaster emergency communications division (decd)
    Since its inception in 2008, FEMA's Disaster Emergency 
Communications (DEC) Division, part of the Office of Response and 
Recovery's Response Directorate, has worked to build an effective 
disaster emergency communications program to improve tactical 
communications capabilities and interoperability during disaster 
response. To fortify this effort, the DEC Division works closely with 
the Department of Homeland Security's (DHS) Office of Emergency 
Communications (OEC). As outlined by Secretary Napolitano's policy, OEC 
has the leadership role within the Department for coordinating 
strategic interoperability efforts. OEC's leadership role is supported 
by all the DHS components through the ``One DHS Communications 
Committee.''
    An important part of the DEC Division's mission is to improve the 
effectiveness and interoperability of Federal response level 
communications throughout the country. The DEC Division serves this 
mission by delivering Mobile Emergency Response Support (MERS) 
capabilities to Federal, regional, State, Tribal, and local agencies in 
various disaster situations. In this role, the Division works closely 
with DHS's National Protection and Programs Directorate's (NPPD) 
National Communications System (NCS)--Primary Coordinator of Emergency 
Support Function No. 2 (Communications). The Division, through its MERS 
detachments, assists NCS in evaluating and supporting post-disaster 
communications restoration needs. These capabilities provide voice, 
video, and data communications through deployable emergency 
communications units, often delivered in austere environments. The 
Division also works with FEMA regions to deliver temporary mission-
critical communications for Joint Field Offices (JFO) during a Federal 
disaster declaration. JFOs support the communications needs of the 
Federal Coordinating Officer, National response teams, and other 
emergency responders.
    For example, in preparing for and responding to Hurricane Irene, 
FEMA pre-positioned a number of National response teams along the East 
Coast of the United States and Puerto Rico, to coordinate with State, 
Tribal, and local officials. MERS assets were strategically located 
throughout the disaster-affected areas to support emergency response 
communications needs. The essential pre-positioning of MERS assets 
resulted in the rapid delivery of Federal communications services in 
the wake of Hurricane Irene.
    In addition, the DEC Division provides expertise to various 
agencies regarding communications technologies, especially during 
mission-critical disaster response. The Division possesses a thorough 
understanding of current communication capabilities and a roadmap to 
adapt to future technologies at the National, regional, State, local, 
and Tribal level which enables it to effectively aid various agencies. 
In the past decade, new policies and new modes of communications have 
significantly transformed the tools used by responders during 
disasters. MERS assets provide effective support to agencies by 
offering a blend of current and widely used technologies with new and 
innovative ones. For example, the Federal Communications Commission 
(FCC) has undertaken a number of efforts to assist public safety by 
modifying spectrum allocations in order to support the use of other 
services such as data and video applications that increasingly demand 
higher capacity channels. These efforts have included narrow-banding of 
land mobile radio (LMR) systems and allocation of radio frequency 
spectrum for broadband use by public safety services. In addition, 
commercial products used by public safety are transitioning toward more 
Internet Protocol (IP)-based devices that improve interoperability and 
increase spectrum efficiency.
    Beyond incident response support, the DEC Division works across 
Government and industry to increase emergency communications 
capabilities, performance, resiliency, and standards. The DEC Division 
recognizes that constant technology innovations, such as social 
networking and next-generation wireless broadband communications, 
rapidly transform and change communications technology. Because of the 
rapid evolution of technology, the DEC Division must continuously 
modernize its communications assets to ensure the operational 
effectiveness of DEC activities and MERS capabilities by updating its 
communications equipment.
    As a result, the DEC Division has developed the DEC Technology 
Roadmap. This Roadmap identifies how the Division can maintain and 
enhance current assets, incorporate new and emerging technologies, and 
assess which technologies FEMA should invest in. Furthermore, the DEC 
Technology Roadmap makes every effort to comply and align with the DHS 
Technology Roadmap to ensure operability and interoperability with 
future DHS joint program office tactical communications initiatives 
while also supporting FEMA's unique emergency communications support 
role. A robust disaster emergency communications architecture enhances 
reliability, resiliency, survivability, redundancy, and security based 
on a unified IP platform and compatibility with all users in the first 
responder community. It begins with a snapshot of current capabilities 
and carefully considers FEMA's future preparedness, mitigation, 
response, and recovery mission requirements, as well as the agency's 
current capabilities. The DEC Division is committed to enhancing FEMA's 
response and recovery capabilities by creating a modernized, 
interoperable communications infrastructure supporting voice, video, 
and data.
    Additionally, DEC Division works with each FEMA region, supporting 
the establishment of State-specific emergency communications plans that 
identify current communication resources and gaps, and enhance 
communications interoperability by facilitating the coordination of 
Federal, State, Tribal, and local communications during an incident. To 
date, the Regions have delivered 39 State and three territory 
communications plans with DEC Division support; and plans to deliver 
six additional State plans and two Regional plans by the end of fiscal 
year 2012.
    The DEC Division has supported the establishment of Regional 
Emergency Communications Coordination Working Groups (RECCWG) in all of 
FEMA's 10 regions. These RECCWGs are comprised of Federal, State, 
Tribal, and local organizations and work closely with the DHS--OEC and 
the FCC to evaluate inter- and intra-State interoperability programs, 
share best practices, and advise FEMA Regional Administrators on the 
state of regional emergency communications capabilities. In a short 
amount of time, the DEC Division has made great strides in improving 
local, Tribal, State, regional, and National emergency communications 
capabilities and will continue its efforts into the future.
           new innovations in communications with the public
    FEMA is committed to improving and updating the means by which we 
communicate with the public in the wake of disasters. The Integrated 
Public Alert and Warning System (IPAWS) is a modernization and 
integration of the Nation's alert and warning infrastructure. The 
current Emergency Alert System (EAS) is built on technology that is 
more than 5 decades old. FEMA created IPAWS to modernize the EAS and 
expand the Primary Entry Point (PEP) station system. The PEP system is 
a Nation-wide network of broadcast stations and other entities that is 
used to distribute a message from the President or designated National 
authorities in the event of a National emergency.
    The National EAS Test, which occurred on November 9, 2011, was an 
essential step toward improving the EAS. This was the first time that 
an EAS test was coordinated Nation-wide, testing the capability to 
communicate emergency information simultaneously across the United 
States, and served as an opportunity for us to discover the true 
limitations of the EAS on a National level. We discovered some 
shortcomings and were surprised at the extent of success in other 
areas. The next steps are reviewing the data, analyzing trends, 
developing action plans and metrics, executing those plans, measuring 
the outcomes, and reassessing our progress. An important focus is 
making the EAS fully accessible. We are working closely with the 
disability community to accomplish this goal.
    In addition to modernizing the EAS, IPAWS has:
  <bullet> Built on the development work done by the cellular industry 
        and the Science and Technology Directorate (S&T) and deployed 
        the Open Platform for Emergency Networks, or IPAWS-OPEN, which 
        can be used at no cost by State, local, territorial, and Tribal 
        public safety partners to share and disseminate emergency 
        alerts.
  <bullet> Adapted the Common Alerting Protocol (CAP), the CAP Profile, 
        and the C-interface, which improve interoperability by 
        establishing data exchange language standards and will continue 
        to work with industry and S&T to develop new standards and 
        seamlessly integrate current and future technologies into 
        IPAWS;
  <bullet> Expanded traditional alerting and warning communication 
        pathways; and
  <bullet> Continued to work with the Department of Commerce and the 
        National Oceanic and Atmospheric Administration (NOAA) to 
        deliver alerts through All Hazards NOAA Weather Radio.
    Looking forward to fiscal year 2012, FEMA's goals are to expand 
IPAWS' interface standards for new social media dissemination and 
communications networks; add redundancy in the dissemination network, 
which allows one message to travel disparate paths; and ensure at least 
90 percent of U.S. residents are covered by at least one means of 
communication by the end of the fiscal year.
    In addition to modernizing the EAS, FEMA is developing PLAN 
(Personal Localized Alerting Network), also referred to as the CMAS 
(Commercial Mobile Alerting System), to allow individuals with an 
enabled mobile device to receive geographically targeted messages 
alerting them of imminent threats, AMBER alerts, or emergency messages 
from the President. CMAS/PLAN leverages extensive work done by the 
cellular industry and S&T to deliver these messages avoiding the delays 
commonly found in text-message based systems. This is a critical 
capability given the recent delays this region saw in disseminating 
text message alerts after the earthquake this past August.
    CMAS/PLAN is scheduled to become operational in New York City and 
Washington, DC by the end of this year, with Nation-wide roll-out of 
operational capability beginning in April 2012. FEMA is working with 
the cellular industry and S&T to conduct test and pilots of this 
capability over the next several months to ensure its success.
                               conclusion
    The ability to effectively communicate during and immediately 
following a disaster is essential to fulfilling our mission. For that 
reason we have completely overhauled the way we communicate with each 
other and with the public in a disaster environment. We are leveraging 
cutting-edge technology as well as important social media tools to 
reach even more U.S. residents. We will continue to work with our 
Federal partners to ensure that emergency communications are as up-to-
date and wide-reaching as possible.
    Thank you for the opportunity to meet with you today. Eric and I 
would be happy to answer any questions you may have.

    Mr. Bilirakis. You are recognized, sir. Thank you.

    STATEMENT OF ERIC EDWARDS, DIRECTOR, DISASTER EMERGENCY 
    COMMUNICATIONS DIVISION, RESPONSE DIRECTORATE, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Edwards. Good afternoon, Chairman Bilirakis, Ranking 
Member Richardson, and distinguished Members of the 
subcommittee. I am Eric Edwards, the director of FEMA's 
Disaster Emergency Communications Division. It is an honor to 
appear before you on behalf of FEMA to discuss our emergency 
communications capabilities and collaboration with Federal 
partners.
    Since its creation in 2008, FEMA's Disaster Emergency 
Communications, or DEC Division, has worked to improve tactical 
communications capabilities and interoperability during 
disaster response. To fortify this effort, the DEC Division 
works closely with the Department of Homeland Security's Office 
of Emergency Communications, or OEC. As outlined by Secretary 
Napolitano's policy, OEC has the leadership role within the 
Department for coordinating strategic interoperability efforts. 
OEC's leadership role is supported by all the DHS components 
through the One DHS Emergency Communications Committee. The DEC 
Division supports the interoperability of emergency 
communications by delivering Mobile Emergency Response Support, 
or MERS, capabilities to Federal, regional, State, Tribal, and 
local agencies in various disaster situations. In this role, 
the division works closely with DHS' National Protection and 
Programs Directorate's National Communication System, or NCS. 
The division, through the MERS detachments, assists NCS in 
evaluating and supporting post-disaster restoration needs.
    The division also works with FEMA's regions to deliver 
temporary mission-critical communications for Joint Field 
Offices, or JFOs, during a disaster or Federal declaration. 
JFOs support the communications needs of the Federal 
Coordinating Officer, National response teams, and other 
emergency responders.
    In preparing for and responding to Hurricane Irene, FEMA 
prepositioned a number of National response teams along the 
East Coast of the United States and Puerto Rico to coordinate 
with State, Tribal, and local officials. MERS assets were 
strategically located throughout the disaster-affected areas to 
support emergency response communication needs. The essential 
prepositioning of MERS assets resulted in rapid delivery of 
Federal communications services in the wake of Hurricane Irene.
    Beyond incident support, the DEC Division works across 
Government and industry to increase emergency communications 
capabilities, performance, resiliency, and standards. The 
Division possesses a thorough understanding of current 
communications capabilities and ways to adopt future 
technologies at the National, regional, State, Tribal, and 
local level, which enables it to effectively aid various 
agencies.
    Because of the rapid evolution of technology, the DEC 
Division must continuously modernize its communication assets. 
As a result, we have developed a DEC Technology Roadmap. This 
roadmap identifies how the division can maintain and enhance 
current assets, incorporate new and emerging technologies, and 
assess which technologies FEMA should invest in.
    Furthermore, the DEC Technology Roadmap makes every effort 
to comply and align with the DHS Technology Roadmap to ensure 
interoperability with future joint wireless program office 
tactical communications initiatives, while also supporting 
FEMA's unique communications support role. A robust Disaster 
Emergency Communications architecture enhances reliability, 
resiliency, survivability, redundancy, and security based on 
compatibility with users in the first responder community.
    Outside of headquarters, the DEC Division supports the 
establishment of Regional Emergency Communications Coordination 
Working Groups with all of FEMA's 10 regions. These working 
groups are comprised of Federal, State, Tribal, and local 
organizations, and work closely with DHS's OEC and the Federal 
Communications Commission to evaluation inter- and intrastate 
interoperability programs, share best practices, and advise 
FEMA Regional Administrators on the state of communications. 
The DEC Division works with each FEMA region to support the 
establishment of State-specific emergency communications plans. 
In a short amount of time, the DEC Division has made great 
strides in improving National, regional, State, Tribal, and 
local emergency communications capabilities, and will continue 
its efforts in the future.
    This concludes my statement. I will be happy to answer any 
questions you may have.
    Mr. Bilirakis. Thank you very much, sir. I appreciate it.
    Now I will recognize Ms. Moore for 5 minutes.

 STATEMENT OF LINDA K. MOORE, SPECIALIST IN TELECOMMUNICATIONS 
      AND SPECTRUM POLICY, CONGRESSIONAL RESEARCH SERVICE

    Ms. Moore. Chairman Bilirakis, Ranking Member Richardson, 
Members of the committee, my name is Linda Moore, and I am 
honored to be here today to testify before you on behalf of the 
Congressional Research Service. You have asked me to provide an 
overview of key provisions in legislation passed since 
September 11, 2001, that have addressed radio communications 
interoperability and operability for public safety agencies.
    In particular, I have considered how lack of coordination 
and collaboration may have diluted efforts to meet 
Congressional mandates for planning and funding. The Homeland 
Security Act of 2002 included requirements that provided a 
basis for Federal leadership to address public safety 
communications needs going forward. These responsibilities were 
split among newly created directorates. Among the identified 
needs were planning and interagency cooperation. Planning 
mechanisms are key to fostering coordination and cooperation.
    The Secretary of Homeland Security set up the Office of 
Interoperability and Compatibility, and gave it the 
responsibility of preparing a National strategy for 
communications interoperability, an organizational move that 
was later ratified by Congress in the Intelligence Reform and 
Terrorism Prevention Act of 2004. This act included several 
sections regarding improvements in communications capacity 
based in part on recommendations made in 2004 by the 9/11 
Commission. The Commission's analysis of communications 
difficulties on September 11 included a recommendation to 
establish Signal Corps units to ensure communications 
connectivity. The 9/11 Commission appeared to point the way 
toward a network solution along the lines of what was in place 
for military use.
    Building on the concept of using the Army Signal Corps as a 
model, the Intelligence Reform and Terrorism Prevention Act 
directed the Secretary of Homeland Security to consult with the 
Secretary of Defense in the development of network protocols, 
including standards, equipment, and--I meant to say projects, 
network projects. If such a consultation occurred, it did not 
apparently result in cooperation or collaboration.
    In 2005, the destruction caused by Hurricanes Katrina and 
Rita once again brought home the need for providing 
interoperable, interchangeable communications systems for 
public safety. Testimony at numerous hearings following the 
hurricanes suggested that DHS had not fully responded to 
Congressional mandates for action. Congress therefore raised 
the bar and added more specific requirements for actions that 
DHS was to take to improve emergency communications.
    In the Homeland Security Appropriations Act of 2007, 
Congress addressed public safety communications in Title 6, 
subtitle (d), the 21st Century Emergency Communications Act of 
2006. This act created the Office of Emergency Communications.
    As described in the legislation, the purpose of the OEC was 
to marshal the efforts of DHS agencies and to work with other 
agencies and departments in developing effective solutions for 
emergency communications. The OEC was required to work with the 
National Communications System in the establishment of a 
National response capability. The OEC was also to prepare a 
National Emergency Communications Plan, intended to ensure, 
accelerate, and attain interoperable emergency communications 
Nation-wide. The three major laws that established requirements 
for DHS to address emergency communications encouraged or 
required planning and collaboration within the Department and 
with other Federal agencies or departments. Many would argue 
that shortcomings in the collaboration of programs across 
agencies and departments have undermined leadership and diluted 
the effectiveness of some programs.
    For example, last year there were over 40 active Federal 
grant programs for emergency communications administered by 
nine different departments and multiple agencies within those 
departments. Based on CRS research, there does not appear to be 
any planning within the Department of Homeland Security or 
among the various grant programs for funding specific 
infrastructure goals that would contribute to the development 
of an interoperable network connectivity Nation-wide.
    Planning for interoperability at the Federal level has been 
primarily through goal-setting, such as those goals established 
by the National Emergency Communications Plan, not through 
direct leadership. This approach would appear to fit with the 
DHS policy that planning for emergency communications should be 
from the bottom up, evolving along a development continuum 
provided by the agency. In April 2011, the President's National 
Security Telecommunications Advisory Committee published a 
report on communications resiliency that included 
recommendations for immediate action and a study of what types 
of networks would be in place 5 to 10 years in the future.
    These trends might be addressed in a future version of the 
National Emergency Communications Plan, and could have been 
included in the plan published in 2008, as all the identified 
trends were already well established by public dialogues about 
communications technology. Thank you.
    [The statement of Ms. Moore follows:]
                  Prepared Statement of Linda K. Moore
                           November 17, 2011
    Chairman Bilirakis, Ranking Member Richardson, and Members of the 
subcommittee, I am honored to be testifying before you today on behalf 
of the Congressional Research Service. My name is Linda Moore and for 
the past 10 years my responsibilities at CRS have included providing 
Congress with information and analysis regarding emergency 
communications, including 9-1-1, the Emergency Alert System, and radio 
communications for first responders. My testimony today provides an 
overview of key provisions in legislation passed since September 11, 
2001 that have addressed radio communications interoperability and 
operability for public safety agencies. This testimony is based on CRS 
reports and memoranda written during the period 2002 through 2011.
    Prior to September 11, 2001, meeting the communications needs of 
first responders was primarily a local or State responsibility. The 
Federal Government provided some assistance and support. For example, 
in 1997, Congress instructed the Federal Communications Commission 
(FCC) to assign additional radio frequency spectrum capacity for public 
safety, based on recommendations by the Federally-sponsored Public 
Safety Wireless Advisory Committee.
                   the homeland security act of 2002
    The Homeland Security Act of 2002 (Pub. L. 107-296) included some 
requirements that provided the basis for Federal leadership to address 
public safety communications needs. Title I of the Homeland Security 
Act created the executive Department of Homeland Security (DHS) and the 
position of Chief Information Officer.\1\ The Chief Information Office 
was responsible for coordinating information sharing Nation-wide and 
for meeting other communications needs within DHS, throughout the 
Federal Government, and for State and local first responders. Within 
DHS, several other initiatives were established to support emergency 
communications, especially as regards interoperability for first 
responders.
---------------------------------------------------------------------------
    \1\ Pub. L. 107-296, Sec. 103(d)(2).
---------------------------------------------------------------------------
    Title II created the Directorate for Information Analysis and 
Infrastructure Protection (IAIP), and established an Office of Science 
and Technology within the directorate. Duties of the Office of Science 
and Technology included research and development support for law 
enforcement agencies for ``wire and wireless interoperable 
communications technologies.''\2\ Among the duties of the IAIP was the 
``preparation of a comprehensive national plan for securing the key 
resources and critical infrastructure'' including `` . . . emergency 
preparedness communications systems, and the physical and technological 
assets that support such systems.''\3\
---------------------------------------------------------------------------
    \2\ Pub. L. 107-296, Sec. 232(b)(6)(E).
    \3\ Pub. L. 107-296, Sec. 201(d)(5).
---------------------------------------------------------------------------
    The National Communications System (NCS) was made responsible for 
telecommunications under the IAIP.\4\ NCS was originally established at 
the Department of Defense by Executive Order in 1984 to assist the 
President, the National Security Council, the Director of the Office of 
Science and Technology Policy and the Director of the Office of 
Management and Budget in the exercise of the telecommunications 
functions and responsibilities, and the coordination of the planning 
for and provision of National security and emergency preparedness 
communications. NCS consults with the President's National Security 
Telecommunications Advisory Committee (NSTAC), among others, on issues 
related to National security and emergency preparedness for 
telecommunications. The primary focus of its programs is to assure 
communications links in times of crisis. Close cooperation with the 
telecommunications industry is also among NCS's responsibilities.
---------------------------------------------------------------------------
    \4\ Pub. L. 107-296, Sec. 201(g)(2).
---------------------------------------------------------------------------
    Responsibilities of the Directorate for Emergency Preparedness and 
Response (Title V) covered ``comprehensive programs for developing 
interoperative communications technology, and helping to ensure that 
emergency response providers acquire such technology.''\5\
---------------------------------------------------------------------------
    \5\ Pub. L. 107-296, Sec. 502(7).
---------------------------------------------------------------------------
    DHS originally assigned primary responsibility for interoperable 
communications projects to the Wireless Public SAFEty Interoperable 
COMmunications Program--called Project SAFECOM, which was placed within 
the Science and Technology Directorate.\6\ Project SAFECOM had been 
authorized by the Office of Management and Budget (OMB) as one of 24 
electronic Government (e-government) initiatives. Responsibility for 
SAFECOM had been assigned by the OMB to the Wireless Directorate of the 
Department of the Treasury. At the recommendation of the Chief 
Information Officers of several Federal agencies, including the 
Departments of Treasury, Commerce and Justice, Project SAFECOM was 
transferred to FEMA and followed it to DHS.\7\
---------------------------------------------------------------------------
    \6\ ``Homeland Security Starting Over with SAFECOM,'' Government 
Computer News, June 9, 2003.
    \7\ ``FEMA Takes Lead for Broader Public Safety Wireless Program,'' 
Communications Daily, June 10, 2002.
---------------------------------------------------------------------------
    The Secretary of Homeland Security assigned the responsibility of 
preparing a National strategy for communications interoperability to 
the Office of Interoperability and Compatibility (OIC), which DHS 
created, an organizational move that was later ratified by Congress in 
the Intelligence Reform and Terrorism Prevention Act of 2004. SAFECOM 
operated as an entity within the OIC, which assumed the leadership 
role.
    In 2003, a CRS Report \8\ discussed the evolving role of the 
Department of Homeland Security in providing support for public safety 
communications. At that time, concerns were expressed by public safety 
experts regarding the fragmented nature of the public safety 
information and communications network and the absence of a network 
overlay that could assure end-to-end communications across the country. 
Other concerns included the absence of redundancy in public safety 
networks and the lack of back-up locations for emergency 
communications.
---------------------------------------------------------------------------
    \8\ CRS Report RL31375, Emergency Communications: Meeting Public 
Safety Spectrum Needs, last updated July 1, 2003.
---------------------------------------------------------------------------
        intelligence reform and terrorism prevention act of 2004
    Acting on recommendations made in 2004 by the 9/11 Commission, 
Congress included several sections regarding improvements in 
communications capacity--including clarifications to the Homeland 
Security Act--in the Intelligence Reform and Terrorism Prevention Act 
of 2004 (Pub. L. 108-458).
    The Commission's analysis of communications difficulties on 
September 11, 2001, was summarized in the following recommendation.

``Congress should support pending legislation which provides for the 
expedited and increased assignment of radio spectrum for public safety 
purposes. Furthermore, high-risk urban areas such as New York City and 
Washington, DC, should establish signal corps units to ensure 
communications connectivity between and among civilian authorities, 
local first responders, and the National Guard. Federal funding of such 
units should be given high priority by Congress.''\9\
---------------------------------------------------------------------------
    \9\ The 9/11 Commission Report: Final Report of the National 
Commission on Terrorist Attacks Upon the United States, Washington: 
GPO, 2004, p. 397.

    Congress addressed both the context and the specifics of the 
recommendation for signal corps capabilities. The Intelligence Reform 
and Terrorism Prevention Act of 2004 amended the Homeland Security Act 
of 2002 to specify that DHS give priority to the rapid establishment of 
interoperable capacity in urban and other areas determined to be at 
high risk from terrorist attack. The law provided a statutory 
---------------------------------------------------------------------------
definition of interoperable communications as:

``the ability of emergency response providers and relevant Federal, 
State, and local government agencies to communicate with each other as 
necessary, through a dedicated public safety network utilizing 
information technology systems and radio communications systems, and to 
exchange voice, data, or video with one another on demand, in real 
time, as necessary.''\10\
---------------------------------------------------------------------------
    \10\ Pub. L. 108-458, Title VII, Subtitle C, Sec. 7303, 118 STAT 
3846.

    The Secretary of Homeland Security was required to work with the 
Federal Communications Commission (FCC), the Secretary of Defense, and 
the appropriate State and local authorities to provide technical 
guidance, training, and other assistance as appropriate to achieve the 
goals established by the act. Minimum capabilities were to be 
established for ``all levels of government agencies,'' first 
responders, and others, including the ability to communicate with each 
other.\11\ The act further required the Secretary of Homeland Security 
to establish at least two trial programs in high-threat areas. The 
process of development for these programs was to contribute to the 
creation and implementation of a National model strategic plan.
---------------------------------------------------------------------------
    \11\ Pub. L. 108-458, Title VII, Subtitle C, Sec. 7303, 118 STAT. 
3843 et seq.
---------------------------------------------------------------------------
    Congress also raised the bar for performance and accountability, 
setting program goals for the Department of Homeland Security. Briefly, 
the goals were to:
  <bullet> Establish a comprehensive, National approach for achieving 
        interoperability;
  <bullet> Coordinate with other Federal agencies;
  <bullet> Develop appropriate minimum capabilities for 
        interoperability;
  <bullet> Accelerate development of voluntary standards;
  <bullet> Encourage open architecture and commercial products;
  <bullet> Assist other agencies with research and development;
  <bullet> Prioritize, within DHS, research, development, testing, and 
        related programs;
  <bullet> Establish coordinated guidance for Federal grant programs;
  <bullet> Provide technical assistance; and
  <bullet> Develop and disseminate best practices.
    The act included a requirement that any request for funding from 
DHS for interoperable communications ``for emergency response 
providers'' be accompanied by an Interoperable Communications Plan, 
approved by the Secretary. Criteria for the plan were also provided in 
the act.\12\
---------------------------------------------------------------------------
    \12\ Pub. L. 108-458, Title VII, Subtitle C, Sec. 7303 118 STAT. 
3843 et seq.
---------------------------------------------------------------------------
    The act also provided a sense of Congress that the next Congress--
the 109th--should pass legislation supporting the Commission's 
recommendation to expedite the release of spectrum for public safety 
use. This was addressed in the Deficit Reduction Act of 2005 (Pub. L. 
109-171).
    The 9/11 Commission appeared to point the way toward a network 
solution along the lines of what was in place for military use. Its 
recommendation to use signal corps to assure connectivity in high-risk 
areas is apparently a reference to the Army Signal Corps. In testimony 
before Congress, Commissioner John F. Lehman commented on the lack of 
connectivity for first responders and referred to the ``tremendous 
expertise'' of the Department of Defense (DOD) and its capabilities in 
procurement, technology, and research and development. Referring 
specifically to the Army Signal Corps, Mr. Lehman suggested that the 
DOD should have responsibility to provide ``that kind of support to the 
first responders in the high-target, high-risk cities like New 
York.''\13\ Building on the concept of using the Army Signal Corps as a 
model, the law directed the Secretary to consult with the Secretary of 
Defense in the development of the test projects, including review of 
standards, equipment, and protocols.\14\
---------------------------------------------------------------------------
    \13\ Testimony of Commissioner John F. Lehrnan, National Commission 
on Terrorist Attacks Upon the United States, Hearing, House of 
Representatives, Committee on Government Reform, ``Moving from `Need to 
Know' to `Need to Share','' August 3, 2004.
    \14\ Pub. L. 108-458, Title VII, Subtitle C, Sec. 7304, 118 STAT. 
3847-3848.
---------------------------------------------------------------------------
             the homeland security appropriations act, 2007
    The destruction caused by Hurricanes Katrina and Rita in August-
September 2005 reinforced recognition of the need for providing 
interoperable, interchangeable communications systems for public safety 
and also revealed the potential weaknesses in existing systems to 
withstand or recover from catastrophic events. Testimony at numerous 
hearings following the hurricanes suggested that DHS was responding 
minimally to Congressional mandates for action, most notably as 
expressed in the language of the Intelligence Reform and Terrorism 
Prevention Act of 2004. Bills subsequently introduced in both the House 
and the Senate proposed strengthening emergency communications 
leadership and expanding the scope of the efforts for improvement. Some 
of these proposals were included in Title VI of the Homeland Security 
Appropriations Act, 2007 (Pub. L. 109-295). Title VI--the Post-Katrina 
Emergency Management Reform Act of 2006--which reorganized the Federal 
Emergency Management Agency (FEMA), gave the agency new powers, and 
clarified its functions and authorities within DHS.\15\
---------------------------------------------------------------------------
    \15\ Information on the FEMA reorganization is provided in CRS 
Report RL33729, Federal Emergency Management Policy Changes After 
Hurricane Katrina: A Summary of Statutory Provisions, coordinated by 
Keith Bea.
---------------------------------------------------------------------------
the 21st century emergency communications act of 2006 and the office of 
                        emergency communications
    The Homeland Security Appropriations Act, 2007 also addressed 
public safety communications in Title VI, Subtitle D--the 21st Century 
Emergency Communications Act of 2006. This section created an Office of 
Emergency Communications (OEC) and the position of Director, reporting 
to the Assistant Secretary for Cybersecurity and Communications. As 
described in the legislation, the purpose of the OEC was to marshal the 
efforts of DHS agencies and to work with other agencies and departments 
in developing effective solutions for emergency communications. The 
Director was required to take numerous steps to coordinate emergency 
communications planning, preparedness, and response, particularly at 
the State and regional level. The Director was also required to work 
with the National Communications System in the establishment of a 
``National response capability with initial and on-going planning, 
implementation, and training for the deployment of communications 
equipment for relevant State, local, and Tribal governments and 
emergency response providers in the event of a catastrophic loss of 
local and regional emergency communications services.''\16\
---------------------------------------------------------------------------
    \16\ Pub. L. 109-295, Title VI, Sec. 671(b), Title XVIII, Sec. 
1801(c)(9), 120 STAT. 1434.
---------------------------------------------------------------------------
    Other responsibilities assigned to the Director included conducting 
outreach programs, providing technical assistance, coordinating 
regional working groups, promoting the development of standard 
operating procedures and best practices, establishing nonproprietary 
standards for interoperability, developing a National Emergency 
Communications Plan, working to assure operability and interoperability 
of communications systems for emergency response, and reviewing grants.
    The National Emergency Communications Plan (NECP) was to ``(1) 
support and promote the ability of emergency response providers and 
relevant government officials to continue to communicate in the event 
of natural disasters, acts of terrorism, and other man-made disasters; 
and ``(2) ensure, accelerate, and attain interoperable emergency 
communications nationwide.''\17\
---------------------------------------------------------------------------
    \17\ Pub. L. 109-295, Title VI, Sec. 671(b), Title XVIII, Sec. 
1802(a)(1) and (2), 120 STAT. 1436.
---------------------------------------------------------------------------
    Required elements of the plan included establishing requirements 
for assessments and reports, and an evaluation of the feasibility of 
developing a mobile communications capability modeled on the Army 
Signal Corps. The feasibility study was to be done by DHS on its own or 
in cooperation with the Department of Defense. Congress also required 
assessments of emergency communications capabilities, including an 
inventory that identified radio frequencies used by Federal departments 
and agencies.\18\
---------------------------------------------------------------------------
    \18\ Pub. L. 109-295, Title VI, Sec. 671(b), Title XVIII, Sec. 
1803, 120 STAT. 1437-1438.
---------------------------------------------------------------------------
    Planning efforts were to include coordination with Regional 
Administrators appointed by the FEMA Administrator to head ten Regional 
Offices. To assist these efforts, Congress required the creation of 
Regional Emergency Communications Coordination (RECC) Working 
Groups.\19\ These groups were to provide a platform for coordinating 
emergency communications plans among States and were intended to 
include representatives from many sectors with responsibility for 
public safety and security. The formation of the regional working 
groups, the RECCs, responded in part to requests from the public safety 
community to expand interoperable communications planning to include 
the second tier of emergency workers. Non-Federal members of the RECC 
were to include first responders, State and local officials and 
emergency managers, and public safety answering points (9-1-1 call 
centers). Additionally, RECC working groups were to coordinate with a 
variety of communications providers (such as wireless carriers and 
cable operators), hospitals, utilities, emergency evacuation transit 
services, ambulance services, amateur radio operators, and others as 
appropriate.
---------------------------------------------------------------------------
    \19\ Pub. L. 109-295, Title VI, Sec. 671(b), Title XVIII, Sec. 
1805, 120 STAT. 1439.
---------------------------------------------------------------------------
                     dhs and other federal agencies
    Federal legislative requirements for actions by the Department of 
Homeland Security in support of public safety communications has, from 
the first law that created the Department, assigned similar 
responsibilities to multiple agencies within DHS. Furthermore, 
legislation has required that DHS initiatives for public safety be 
coordinated with other agencies. Many would argue that shortcomings in 
the coordination of programs across agencies and departments have 
undermined leadership and diluted the effectiveness of some programs.
    Congress has separately and specifically given authority to DHS and 
to the FCC to act on behalf of public safety. In the case of DHS, 
authority includes planning and implementing public safety 
communications solutions and setting requirements to coordinate and 
support specific goals, such as interoperability and a National 
communications capability.
    By 2006, three Federal agencies were proposing different approaches 
to provide communications interoperability for public safety.\20\ The 
FCC was moving forward with a proposal for a public-private partnership 
to build a Nation-wide network,\21\ and later included a similar plan 
for building the network in its National Broadband Plan.\22\ The 
National Telecommunications and Information Administration (NTIA) 
established a Spectrum Advisory Committee whose objectives included 
developing spectrum-efficient recommendations for a National network of 
networks.\23\ Within DHS, the focus was on gateways--also known as 
bridges, or as cross-talk or cross-patch systems, among other terms. 
The gateway is a ``black box'' that can accept wireless transmissions 
on one frequency standard and resend them on other frequency standards. 
As a result, they are inefficient users of spectrum, since a single 
message is using two or more frequency assignments. Gateways are the 
technology centerpiece of efforts by DHS to achieve situational 
interoperability.\24\ Situational interoperability and ``response-level 
emergency communications'' remains an important goal for DHS and the 
OEC, according to recently reported findings and recommendations.\25\ 
For the purposes of the NECP, response-level communications is ``the 
capacity of individuals with primary operational leadership 
responsibility to manage resources and make timely decisions during an 
incident.'' The Office of Emergency Communications has advocated 
emergency communications planning from the bottom up, encouraging 
stakeholders to find their own solutions within frameworks established 
within DHS, evolving along a development continuum provided by the 
agency.\26\ A primary activity of the OEC is to manage State-wide 
planning and coordination for interoperable communications and 
administer compliance with the National Emergency Communications Plan.
---------------------------------------------------------------------------
    \20\ Described in CRS Report RL33838, Emergency Communications: 
Policy Options at a Crossroads, by Linda K. Moore, last updated January 
30, 2007.
    \21\ Congressionally-mandated obligations of the FCC include to 
``promote safety of life and property through the use of wire and radio 
communication,'' (47 U.S.C. 151) and requirements regarding the 
assignment of radio frequencies for public safety use. The FCC created 
a Public Safety and Homeland Security Bureau in 2006 to consolidate its 
many programs oriented toward public safety.
    \22\ FCC, Connecting America: The National Broadband Plan, 2010.
    \23\ The NTIA manages radio frequency spectrum allocated for 
Federal use and advises the administration on spectrum issues and new 
wireless technologies, among other responsibilities.
    \24\ See, for example Department of Homeland Security Press 
Conference on Assessment of Interoperable Communications, January 3, 
2007 (transcript provided by Federal News Service), and Homeland 
Security Press release, ``Remarks by Homeland Security Secretary 
Michael Chertoff at the Tactical Interoperable Communications 
Conference,'' May 8, 2006.
    \25\ Department of Homeland Security, National Emergency 
Communications Plan: Urban Area Communications Key Findings and 
Recommendations, 2011.
    \26\ The continuum diagram is at http://www.safecomprogram.gov/
?SAFECOM/?Tools/?Continuum/?continuum.htm; additional descriptions at 
http://www.safecomprogram.gov/?SAFECOM/?oecguidancedocuments/
?continuum/?default.htm.
---------------------------------------------------------------------------
    According to testimony in 2008, neither the FCC nor the OEC 
undertook to incorporate each other's goals in their specific planning 
processes.\27\ In 2009, the Government Accountability Office confirmed 
the lack of coordination and cooperation between DHS and the FCC.\28\ 
In April, 2010, the FCC established the Emergency Response 
Interoperability Center (ERIC).\29\ ERIC has been tasked with 
implementing standards for National interoperability and developing 
technical and operational procedures for the public safety wireless 
broadband network. DHS is to participate in public safety outreach and 
technical assistance, as well as best practices development, through 
its Office of Emergency Communications. It is intended for ERIC to work 
closely with the Public Safety Communications Research program, jointly 
managed by the National Institute of Standards and Technology (NIST) 
and the NTIA, to develop and test the technological solutions needed 
for public safety broadband communications.\30\ ERIC has, in part, 
become the forum for cooperation among three agencies with different 
visions of the future and competing claims to provide leadership.
---------------------------------------------------------------------------
    \27\ Oral and written testimony before the House Committee on 
Homeland Security, Subcommittee on Emergency Communications, 
Preparedness, and Response, ``Interoperability in the Next 
Administration: Assessing the Derailed 700 MHz D Block Public Safety 
Auction,'' September 16, 2008.
    \28\ GAO, Emergency Communications: Vulnerabilities Remain and 
Limited Collaboration and Monitoring Hamper Federal Efforts, GAO-09-
604, June 26, 2009.
    \29\ FCC, Order, PS Docket No. 06-229, released April 23, 2010 at 
http://fjallfoss.fcc.gov/?edocs_public/?attachmatch/?FCC-10-67A1.pdf.
    \30\ NIST, ``Demonstration Network Planned for Public Safety 700 
MHz Broadband,'' December 15, 2009.
---------------------------------------------------------------------------
  president's national security telecommunications advisory committee
    In January 2010, the President's National Security 
Telecommunications Advisory Committee (NSTAC) received an Executive 
Order requiring a report on communications resiliency, that would 
include recommendations for immediate action and a study of what types 
of networks would be in place 5 to 10 years in the future.\31\ One of 
the recommendations was to encourage DHS to file comments with the FCC 
in support of continuing efforts to work closely with industry ``as it 
builds the Nation-wide interoperable public safety mobile broadband 
network . . . ''.\32\ The Report's scenario for the ``Public Safety 
Communications in Network 2015'' assessed the current status of public 
safety communications as follows:
---------------------------------------------------------------------------
    \31\ NSTAC Report to the President on Communications Resiliency, 
April 19, 2011.
    \32\ Report, page ES-2.

``While many state and local agencies have modernized and expanded 
their mission-critical voice systems through initiatives such as 
Federal grant programs, or are in the process of doing so, the 
communications challenges for those operating on the front lines in 
public safety have not been eliminated.''\33\
---------------------------------------------------------------------------
    \33\ Report, page 12.

    The key public safety communications trends in 2015 identified by 
the report are: Public safety system consolidation; interoperability, 
convergence, and roaming; future broadband wireless network; emerging 
capabilities; specialized public and private devices; and emergency 
alerting capabilities. These trends might be addressed in a future 
version of the National Emergency Communications Plan and could have 
been included in the plan published in 2008, as all of the identified 
trends were already well-established by public dialogs about 
communications technology.
                  funding interoperable communications
    It was not until after September 11, 2001 that Federal agencies 
began to give a high priority to programs that improved emergency 
communications and interoperability, to direct grants specifically for 
interoperable communications, and to provide totals for grants directed 
to these types of programs. A number of Federal agencies have roles in 
guiding and monitoring some decisions of States and localities through 
grant administration, greatly diffusing Federal oversight and 
leadership through grant governance. There are currently over 40 active 
programs, administered by nine different departments and multiple 
agencies within those departments, providing grants for funding 
emergency communications.\34\ Within DHS, the Office of Emergency 
Communications, the SAFECOM Program, and the Federal Emergency 
Management Administration (FEMA) are among the agencies that formulate 
policies, plan exercises, provide guidelines, and establish 
requirements.\35\
---------------------------------------------------------------------------
    \34\ Based on a summary of Federal programs provided by SAFECOM.
    \35\ Links to relevant SAFECOM and FEMA grant program documents are 
available at http://www.safecomprogram.gov/?SAFECOM/?grant/
?default.htm. Information on OEC grants is at http://www.dhs.gov/
?xopnbiz/?grants/?gc_1288707294166.shtm.
---------------------------------------------------------------------------
    Because of the proliferation of grant programs and earmarks, and 
because of varying levels of details in published information regarding 
Federal grant programs, it seems difficult to prepare an accurate 
accounting of what has been spent and how, and the Congressional 
Research Service was unable to locate such an accounting.\36\ Based on 
CRS research, there does not appear to be available information to 
assess planning within the Department of Homeland Security for funding 
specific infrastructure goals, such as radio tower construction, that 
would contribute to the development of interoperable network 
connectivity Nation-wide. This approach would appear to fit with the 
DHS policy that planning for emergency communications should be from 
the bottom up, evolving along a development continuum provided by the 
agency.\37\ Planning for interoperability at the Federal level should 
be primarily through goal-setting, such as those established in the 
National Emergency Communications Plan,\38\ not through direct 
leadership.
---------------------------------------------------------------------------
    \36\ CRS, Congressional Distribution Memorandum, ``Federal Funding 
of State and Local Emergency Communications Projects,'' updated June 
10, 2011.
    \37\ The continuum diagram is at http://www.safecomprogram.gov/
?SAFECOM/?Tools/?Continuum/?continuum.htm; additional descriptions at 
http://www.safecomprogram.gov/?SAFECOM/?oecguidancedocuments/
?continuum/?default.htm.
    \38\ DHS, National Emergency Communications Plan, July 2008.
---------------------------------------------------------------------------
                               conclusion
    After September 11, 2001, there was a shared sense in Congress and 
throughout the Nation that the communications capabilities available to 
first responders were inadequate and needed to be improved. The 
problems were understood, but not the answers. In 2004, Congress had 
identified specific actions to be taken by the Department of Homeland 
Security in support of communications interoperability, which was 
defined in the Intelligence Reform and Terrorism Prevention Act of 2004 
as operating `` . . . through a dedicated public safety network 
utilizing information technology systems and radio communications 
systems, and to exchange voice, data, or video with one another on 
demand, in real time, as necessary.'' Many policy advisers within the 
public safety community were recommending some form of network to 
provide an interoperable communications solution. By 2005, the 
commercial wireless industry and the Department of Defense were 
planning on how to utilize new network technologies based on the 
Internet Protocol. In 2006, the FCC proposed a public-private 
partnership to build a network for public safety that would use new 
broadband technologies to provide voice, data, and video 
communications. A consensus in favor of a network solution had 
therefore begun to emerge. In recognition of the potential role of new 
network technologies to provide interoperable, resilient, and effective 
support for public safety communications, the 21st Century Emergency 
Communications Act of 2006 created the Office of Emergency 
Communications. The law required the OEC to develop a National plan 
that was to ``ensure, accelerate, and attain interoperable emergency 
communications Nation-wide,'' and provided DHS with new tools to 
complete the plan. Still, consensus was not universal, and many 
stakeholders within the public safety community in particular remained 
uncommitted to the concept of using a Nation-wide network to meet their 
primarily local needs. The debates about a network solution revealed 
uncertainty among policymakers and stakeholders regarding the 
appropriate role of the Federal Government. This debate appears to 
remain unresolved: Bills that have been introduced in the 112th 
Congress show a great deal of cohesion about the need for a Nation-wide 
network and what type of support it should provide to public safety 
agencies, but little agreement about the roles that different Federal 
agencies would play in the deployment and operation of the network.

    Mr. Bilirakis. Thank you very much.
    I appreciate it, Ms. Moore.
    What we are going to do is I am going to start asking the 
questions. I am going to recognize myself. But I want to make 
sure everybody gets an opportunity. I know we are expecting 
votes in the next few minutes. So more than likely I am not 
going to use my entire 5 minutes.
    Mr. Essid, I would like to begin with you. Can you talk to 
me more about the One DHS Communications Committee and how OEC 
is playing a leadership role in the development of 
communications policies for DHS?
    Again, it is my understanding that there are at least 10 
communications-related offices within DHS. Is that accurate? I 
want to know that.
    Are you receiving sufficient cooperation and participation 
from these DHS offices? Are the efforts of these offices well-
coordinated to ensure that there is no duplication, that there 
is interoperability within DHS? If you can answer that 
question, please.
    Mr. Essid. Yes, sir. The Office of Emergency Communications 
does coordinate the One DHS communications working group, or 
committee. A lot of the components, most of the components 
within DHS participate in that. All of the ones that have 
communications equities do. We use that group to coordinate as 
a Department versus all the different components doing their 
own thing.
    We have seen considerable progress in the short time that 
the committee has been working together, about 2 years. We have 
got good participation. There are a lot of programs that have 
communications equities on that group. FEMA is on the group, 
the NCS is on the group, a lot of different--CBP is on the 
group, we have got the Coast Guard on the group. We are 
coordinating at a Departmental-level communications investments 
and strategies. We have developed a strategy, a Departmental-
wide strategy for emergency communications moving forward. So 
we are working together as a Department like never before 
through this One DHS group. Everyone is participating in the 
group. We have got a lot of great innovative things that the 
group is working on. But the largest accomplishment so far is a 
Departmental-wide strategy that Secretary Napolitano wanted the 
group to develop.
    Mr. Bilirakis. Very good. Thank you.
    This question is for Mr. Penn. Mr. Penn, last week the 
Emergency Alert System was tested for the first time. In your 
testimony, you stated that FEMA discovered some shortcomings, 
and I heard from my local district some of the emergency 
management folks, but obviously there were some shortcomings, 
and we were surprised at the extent of the success in other 
areas. Your quote.
    Could you please elaborate on some of the shortcomings that 
you discovered as a result of the test, and could you also 
describe some of the successes that were enjoyed? Now that the 
test is complete, describe what is going to happen next.
    Mr. Penn. Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you.
    Mr. Penn. The agency, the Department, FCC, and NOAA, all 
agreed that the test was a success. The fact that we actually 
conducted the test in itself was a success because we have got 
equipment that is as old as 50 years that we never turned on 
before. So what else do you have that is 50 years old that you 
never turned on and ensured that it worked properly? So just 
the conduct of the test went a long way towards our overall 
applications of where we need to go next.
    Some successes that I think we enjoyed from the information 
that we received so far, and we have got a lot of information 
yet to acquire and a lot of analysis to do, the broadcasters, 
for instance, aren't required to turn in their actual reports 
until 45 days after the test. So more is forthcoming.
    But some general observations. Our message propagation 
worked better than we thought it would. That is the message 
originating from the White House, going all the way down 
through individual broadcasters to individual homes. All 63 of 
our primary entry-point stations received the alert, and 60 
were able to rebroadcast the alert. In some States, we had over 
90 percent coverage through the broadcasters and out through 
their stations to their public that they were serving. We also 
found it as a success that the public was not overly alarmed 
that we were doing a Nation-wide test. We owe that a lot to the 
broadcasters and the public service announcements that they put 
out, and the extra effort they went to to provide a backdrop 
and other things to make sure public knew we were doing the 
test.
    Then the homework that was done before the test occurred 
went a long way, with the blogs we had and some workshops we 
did with individual broadcasters and individual station owners 
and their technicians to make sure that we put the best foot 
forward when we started the test.
    We found out some technical issues that we didn't know we 
had, and were able to work through some of those, but have 
another list that we still need to work on.
    Finally, we were able to validate our theoretical coverage 
models for where we thought the signal would go, and who would 
be able to hear it and how it was propagated.
    A few things that didn't go as well as we thought they 
might, first of all, audio quality. The audio quality 
throughout the test was sporadic, and in some cases didn't 
exist at all. Initial findings show that part of the problem 
was, and a large part of the problem, was some feedback that we 
got from one of the primary entry-point stations. Their 
encoder-decoder had a malfunction, and it actually started 
rebroadcasting the message back up the line that it received 
the message. So that made all the messages everyone else 
received down line of that to be garbled. We also had some 
points where we didn't receive a message at all. We broke the 
transmission that the station was doing, but there was no 
audio. So we need to work to find out what the causes of that 
were and how we work better to put that together.
    We also found out that the video--we knew going into the 
test that the video message was too generic and inconsistent. 
We got a lot of help from the deaf and hard-of-hearing 
community to help us work on what the scroll should look like, 
and how the scroll should work, and how it is best recognized 
as it goes across the televisions. The scroll will never match 
the audio. That is because the beauty of EAS is its simplicity, 
and its biggest drawback is its simplicity. So the scroll is 
intended to be a general alert that tells you that there is a 
problem and you need to tune to your local authorities to get 
information. That needs to be better, and we can do that. But 
then the audio is where the President actually conveys his 
message. That will be the text that he prepares.
    So the simplicity is that we have to have something that 
whoever is working the night shift the first day on the job can 
initiate. That is why the scroll and the audio will not match. 
But we need to do a much better job of what we use as a scroll. 
Then mixed reports across from satellite providers, cable 
providers, and the stations with specific issues that we need 
to work through.
    So our next steps are evaluate all the information that we 
have, develop a plan with metrics on how we are going to 
correct those, start our corrective action on the largest 
groups and the largest problems that we have that are 
collective, and work our way through. Then at some point when 
we are ready to test, do another test to make sure that we are 
on path and we continue to make the system better.
    But what I will commit to you, Mr. Chairman, and to the 
committee, is we will not turn this test analysis into a life's 
work. We will work through and make sure we know what the 
problems are and that we are solving the right problems, but we 
won't let the test results become an entity of their own and 
never make any progress.
    Mr. Bilirakis. Very good. Thank you very much.
    I am going to go ahead and yield to my Ranking Member. Ms. 
Richardson, from the great State of California, is recognized 
for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. I believe my first 
question is for Chris--how do I say your last name?
    Mr. Essid. Essid.
    Ms. Richardson. Essid?
    Mr. Essid. Yes, ma'am.
    Ms. Richardson. Essid. Okay. In your testimony, you 
highlighted how important grant funding has been to building 
emergency communication capabilities for first responders all 
across the Nation. Unfortunately, however, cuts by Congress 
could threaten the building and sustainability of these 
capabilities. Based upon your communications with State and 
local first responders, what capabilities have already been 
lost or endangered because of the cuts in the grant programs 
dedicated for emergency communications?
    Mr. Essid. Well, traditionally a lot of grant funding goes 
toward equipment and purchasing systems, and recently we have 
made a lot of progress as a Nation because we have had specific 
funds and enough grant funds to support coordination activities 
like State-wide coordinators, getting State-wide governance 
structures together where you get fire, police, EMS, State 
officials, IT professionals, local elected officials together 
to work the problem as a whole, and you have State-wide plans. 
So a lot of those coordination activities also include training 
and exercise.
    Those are the types of things that I think with the limited 
grant funding or reductions and limited funding just in general 
in these tough economic times that will be in trouble.
    One of the things we are doing to try to counter that is 
using the information that we have collected from the National 
plan Goal 1 and Goal 2 demonstrations to target our more 
limited resources to hit the greatest things, the biggest gaps 
out there throughout the Nation. Right now they really are 
governance, training, and then really the technologies, trying 
to come up with new technologies. Public safety right now is 
migrating from what it has always used, land mobile radio, 50-
year-old technology, to these new broadband technologies.
    Ms. Richardson. Sir, let me be maybe a little more 
specific. Would you, if you don't have it with you today, could 
you please supply to the committee specifically, based upon the 
cuts that have already been proposed, how do you see them 
impacting State and local governments?
    So, for example, if you have been able to roll out to 20 
percent of the country or 30 percent of the country, if you can 
lay out for us approximately what has and what has not been 
covered so we can anticipate where the shortfall might be.
    Then if you could be specific with us. So instead of, you 
know, just general, well, training will be impacted. Well, we 
need a little more meat on the bones. So if you can tell us 
specifically out of the amount of funds 20 percent goes to 
training, and you have received requests for $20 million more 
that you wouldn't be able to fund, those are the kinds of--that 
is the kind of detail that we need. Because as we make these 
very difficult decisions, we need to make them as thoughtful as 
possible.
    Building upon that, reflecting on the decreases in 
available preparedness grant funding for the Interoperable 
Emergency Communications Grant Program, IECGP, that was 
defunded in fiscal year 2011. Has FEMA assessed the extent to 
which the grantees used Homeland Security grant program funds 
to continue to enhance their interoperability?
    Mr. Edwards. Ranking Member Richardson, we do not have the 
information on the grant funding at this point in time. We will 
be happy to get back to you on that question.
    Ms. Richardson. Okay.
    Then Mr. Penn, it is good see you again, as always. I think 
you gave a fair assessment of the National test and what 
occurred. The only thing I didn't hear you say was how long you 
thought it would take--well, I had two questions on it--No. 1, 
how long you thought it would take us to be able to assess that 
information. Then No. 2, do you feel that you really got an 
accurate assessment of how that whole program rolled out across 
the country? Do you think you got all of it?
    Mr. Penn. Yes, ma'am. I think we can provide an initial 
assessment with a few more data points to you in another week 
or 2 based on our initial conversations. The broadcasters have 
45 days from the test to submit their detailed reports. It 
should take the FCC and our staff another 60 days or so to put 
together a more comprehensive report on what we found. From 
there we can give you an idea of where we need to move forward 
and what we need to do next. I think the test was comprehensive 
enough to give us a good start on where we need to go. The 
issues that I identified are not small issues to correct. So we 
have plenty to work on.
    Two things that we will have to defer to future testing 
that we did not test during this test is a longer duration 
message. There is a part of the system that will allow State 
and locals to generate a message up to 2 minutes. There is not 
a 2-minute requirement for the Presidential message. So at some 
point we want to keep the system up for over 2 minutes so we 
can ensure that the Presidential message does not get cut off 
by the mechanism in the device.
    The other thing we want to do is bring the system up longer 
so we can ensure that the system will stay stable for an 
extended period, so upwards of 2 or 3 minutes. We did not test 
those two parts of the system because going into the test we 
had some concern over the public mistaking the test as an 
actual emergency. We didn't want to stress it too far when we 
started. So those are two things that we need do with future 
tests that are incomplete with what we did.
    Ms. Richardson. Thank you, sir. Mr. Chairman, I have one 
more question. Can I ask it now?
    Mr. Bilirakis. Go ahead.
    Ms. Richardson. Thank you, sir. This one is to Mr. 
O'Connor. In 2008, the GAO recommended that the Department of 
Homeland Security produce a strategic plan for the National 
Communications System. In a follow-up report published in 
August 2009, the GAO indicated that the strategic plan for the 
NCS had yet not been finalized. Is there a strategic plan for 
the NCS?
    Mr. O'Connor. Currently, our strategic plan remains a 
working document. It has been impacted in the development due 
to some changes in methodologies and communications and 
responses during disaster. Since the GAO report, however, we 
have made incremental progress in pressing more programmatic 
issues with that, and have implemented those into our action 
plans. So we continue to focus on our future areas at this 
point in time, and we coordinate disasters and the evolution of 
communications. Our plan is still under development, and our 
plan is to take that to the GAO upon completion.
    Ms. Richardson. Okay. Sir, for the record for this 
committee, could you supply in writing what is the delay in 
finalization and release of your strategic plan? What is the 
NCS status of implementing the benchmark or goals outlined in 
the plan? What specifically are your challenges in hindering 
NCS' ability to implement the strategic plan? In what ways must 
NCS coordinate its efforts with other Federal agencies to 
achieve the objectives of a strategic plan?
    Mr. O'Connor. Yes, ma'am.
    Ms. Richardson. Thank you.
    Mr. Bilirakis. Thank you. I now recognize Mr. Marino for 5 
minutes.
    Mr. Marino. Thank you, Chairman. Good afternoon, folks. In 
a little over a week this committee is going to be having a 
hearing in my district in central Pennsylvania, north central 
and northeastern Pennsylvania. The primary objective is, 
subsequent to the floods and the hurricanes that occurred there 
last month, we just simply want to ask what would we have to do 
to improve the services, the emergency services that we have 
provided in those hurricanes and floods. It is not a situation 
where we are pointing fingers.
    So would you each take about 30 minutes, if you have not 
already--I know Mr. Penn did to a certain extent--and let's 
just set aside expense for now, but tell us what we would do 
over again, what you would do over, and what we can do to make 
the whole system more efficient and effective. Mr. Essid, would 
you please start?
    Mr. Essid. Yes, sir. Well, one of the things we do is we 
work with State and locals on their day-to-day capabilities, so 
when those disasters take place they do have redundancy, they 
have it very clear what you can do. A lot of the States have 
tactical communications capabilities that they have bought with 
previous grant funding that they can bring into an area to 
restore communications. So we have got 10 regional 
coordinators, one in each of the FEMA regions, and they 
basically work with all the State and locals to try to bridge 
any gaps they have got. So we have been working with FEMA and 
NCS to support their efforts to restore communications when 
those disasters do take place.
    Mr. Marino. Thank you. Mr. O'Connor, please.
    Mr. O'Connor. One of the most important things during 
disasters is having existing relationships. Doing introductions 
in a time of crisis is the wrong time to have that. So what I 
encourage is that you take advantage of training events, and 
also doing an outreach up and down your Governmental chain to 
make sure that you understand there are partners here at FEMA 
DEC, those at the NCS, making sure that the relationships are 
in place. Once you have that, then you take a look at the 
infrastructure, and are you taking advantage of the 
prioritization programs. Do you have a GETS card? Do you have 
WPS on your phone? Do you have a telecommunication service 
priority, restoration priority on your existing circuits, so if 
those are damaged they can be repaired first in order on the 
repair list from the industry partners.
    Again, you should also do an outreach to the industry 
partners. They have made a huge investment in communications. 
We want to take that infrastructure and leverage it to the best 
of our capabilities to make sure there is diversity and 
resilience, redundancy, built in so that communications is not 
a limiting factor for getting response done.
    Mr. Marino. Thank you. Mr. Penn, please.
    Mr. Penn. Yes, Congressman Marino. As you know, the 
Emergency Alert System is only part of a larger system, the 
Integrated Public Alert and Warning System. We will start 
fielding that system, which provides an alerting mechanism 
through our wireless providers. We will begin fielding that 
this December, next month, in New York City and Washington, DC. 
From there, starting in April, we will continue with the world-
wide--or Nation-wide distribution with the carriers and their 
ability to field the systems and field the equipment.
    So for Pennsylvania, as with the other States, one of the 
things that we have to do is a training program for your alert 
message originators. That will go on-line on the 1st of 
December. That will provide the tools that they need to be able 
to initiate an alert and warning that goes through the whole 
IPAWS system and communicates with that backbone that we have 
set up, to your citizens, as well as the other equipment and 
other capabilities that some of your local and State emergency 
managers have already.
    Mr. Marino. Thank you, sir. Mr. Edwards.
    Mr. Edwards. Congressman Marino, FEMA has principal 
responsibility to establish and support regional emergency 
communications working groups. But the focus and the direction 
of the working groups are actually by the members and the 
States. So I would encourage the State telecommunication 
managers to actively participate within those working groups, 
identify any of the gaps in the resources or the State planning 
mechanisms, such as the State-wide communications 
interoperability plans, or the tactical interoperability plans, 
or our own Federal annex to the State plan, and with using 
those documents, which Chris and I's office coordinates on, I 
would use those to bring up any issues associated with the 
resourcing of the disaster response.
    Mr. Marino. Thank you, sir. Ms. Moore.
    Ms. Moore. I have addressed some of these issues in my 
reports for Congressional Research Service, but I deal with 
policy for the future. So I don't have a response regarding an 
immediate solution for Pennsylvania or what might have been 
done.
    But as you may have noticed, I am very interested in seeing 
plans for a network move ahead more rapidly, a more 
comprehensive network infrastructure to help carry emergency 
communications for better response and recovery. I think we 
need a better network to do that.
    Mr. Marino. Thank you. I yield back.
    Mr. Bilirakis. Thank you, Mr. Marino. I will recognize Mr. 
Clarke from the great State of Michigan. You are recognized for 
5 minutes, sir.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman. My 
question is more on how the elected Member of Congress can play 
an effective role in alerting the public about how to best 
prepare for a likely emergency, whether it is a terrorist 
attack or some other natural disaster, and also what they 
should do in the event of such a likely attack, as has already 
occurred.
    Let me give you an example. So I represent metropolitan 
Detroit. In my opinion, that area is at high risk of an attack 
because we have some high-profile targets. The Detroit-Canadian 
border is the busiest international trade crossing in North 
America. So our bridge, our international bridge, our 
international tunnel could be a target. Our drinking water 
system, since we have a large drinking water system, one of the 
largest in the country, could be a target, let's say, of some 
type of bioterrorism attack. We have the world headquarters of 
General Motors, which is still one of the largest companies in 
the world. So we have this 70-story structure right on the 
riverfront. We have an international hub airport which was the 
target of the Christmas day bomber. He attempted to blow up a 
plane that was destined for that airport.
    So if there is some type of effective, yet proper role, 
public role, for a Member of Congress to play in their 
district, especially those of us that are on this committee, we 
are looked at for leadership in that sense in homeland 
security, what type of role could we play to effectively alert 
our people to prepare them better for an attack? Or, for 
example, if such an attack actually occurred, whether it was 
fully realized or not, like the attempted bombing of this 
plane, we may be the ones that are contacted initially by the 
media. Or we are looked to as the folks that give the public 
guidance initially. If you have any thoughts on that, I welcome 
that.
    Mr. Penn. Sir, if I could try first, the first thing I 
would ask you to do was to remind everyone that disasters are 
local. Everything starts with the family taking care of the 
family, community taking care of the community, up through the 
county and the State. What we provide at FEMA at the National 
level is to assist those emergency managers and first 
responders in doing their jobs and working to take care of 
their communities. So if you could remind everybody that they 
have a part to play in emergency management, because emergency 
management starts with them, I think that would be a good place 
to go.
    Also if you could refer them to Ready.gov, that has some 
great information on what you need to put together an 
individual preparedness kit, and what you need to have for your 
family and at your workplace and those kinds of things. So if 
you could help us carry the message that way, I think that 
would go a long way to helping ensure we have individual 
preparedness. Everything from there just gets larger and 
broadens itself out.
    Mr. Clarke of Michigan. Anyone else have any thoughts?
    Mr. Edwards. Yes, Congressman. My name is Eric Edwards. My 
focus normally is on response communications. But because of 
that focus, I have a tendency to look at the continuity of 
communications systems and other things that you can do to 
ensure that on a very bad day you are able to communicate with 
the public.
    So the use of the social media and how the public is using 
the social media and how it connects to the State and local 
EOCs, I think it is a good time to look at all those 
connectivities and all those issues so that we understand where 
the critical points are, who provides the right messaging, the 
right content. If for some reason one of those events were to 
occur, we would know how to ask the Federal Government and any 
other of our partners to come in and restore those 
communication--broken lines of communication so that we can 
best enable yourself and others to support your citizens and 
restore the capabilities as fast as possible.
    Mr. Clarke of Michigan. Thank you, Mr. Edwards.
    Mr. Essid. Congressman, for example, most citizens feel 
that they can send a text message to 9-1-1. Most 9-1-1 centers 
aren't set up to accept them. Those are the types of things I 
think folks need to know as we continue to improve our 
communications. In a disaster when you need assistance is not 
the time to find that out.
    Mr. Clarke of Michigan. I want to thank you all for your 
responses. If I could, I would like to set up a conference call 
with all of you later on some day to go over these things. 
Thank you for addressing these issues publicly.
    Mr. Bilirakis. Does the Member yield back?
    Mr. Clarke of Michigan. Yes.
    Mr. Bilirakis. Thank you. Okay. I think we have time for 
one more quick round, if that is okay with the Members. They 
haven't called votes yet. So I will go ahead and begin. I will 
recognize myself for 5 minutes. I understand that one of your 
responsibilities--this question is for Mr. Edwards--one of your 
responsibilities is to develop plans and lead Mobile Emergency 
Response Support detachments deployed during National special 
security events. What is your role in developing emergency 
communication plans and procedures for the 2012 Democratic and 
Republican National Conventions? Then I have a follow-up for 
Mr. Essid after that.
    Mr. Edwards. Chairman, we look at the planning process 
between ourselves in FEMA, OEC, and NCS as inextricably linked. 
We would get with the OEC and review the State's 
interoperability plans, because those represent where the State 
believes they have the critical communications capabilities and 
where their resources are, where their priorities are.
    We would then look at the tactical communication 
interoperability plans to make sure we understand what the 
local government believes are the most important pieces. We 
would then take a look at our own Federal annexes to the State 
plans to make sure that those plans are harmonized and in 
synchronization with each other. We would use those plans as a 
basis for identifying the capabilities within our own assets.
    Of course, I have to point out that the Federal Government 
resources are vast, and the National Communications System, 
through their Emergency Support Function No. 2 capabilities 
would be able to marshal any and all resources necessary to 
support an event such as an NSSC. So it is not just FEMA, it is 
actually the whole community coming together to determine the 
right resources necessary to resource that event, whether or 
not it is planned or a natural event.
    So we would then identify those capabilities that were 
necessary, and we would put those assets in place. We would use 
our plans as a basis of operationalizing the capabilities. We 
would look to FEMA's interagency planning process to make sure 
that we had the right plan in place to respond to your 
requirements.
    Mr. Bilirakis. Very good. Thank you. Then Mr. Essid, if you 
want to elaborate on OEC's role in the planning.
    Mr. Essid. Mr. Chairman, one of the things, I think Mr. 
Edwards hit it right on the head, but I would like to yield to 
Mr. O'Connor, because he has got a lot of--we work with NCS and 
FEMA on this, but they would have the lead on the technical 
planning for an event like that.
    Mr. Bilirakis. Certainly.
    Mr. O'Connor. Thank you, Chairman. In fact, I just have a 
member of my staff is coming back from Hawaii from the APEC, 
which is an NSSC conference. He was out there standing watch at 
the Multi-Agency Communications Center. Part of the efforts 
that we take in that instance are, once it is identified and 
declared by the Secretary that it is an NSSC, we begin to reach 
out to the actual venue that is going to be hosting the event, 
and we send a representative down there to have a discussion 
about communications capabilities, walk the facility, talk 
about the security that you need for it, and then also advise 
who is providing that communications functionality to them. In 
turn, we bring that to the industry partners to let them know 
that this event is going to be happening in their backyard, and 
that when you have an event like this, not only are you looking 
at the security and ability to provide communications, but you 
do set up some physical boundaries. Physical access and entry 
to the area may impact communications assets that are 
supporting the event or simply within that perimeter.
    So we end up setting up a responsibility with the Secret 
Service on being the focal point for the communications 
industry to identify and credential their staff to get into 
that perimeter, work in those facilities, and be able to ensure 
that communications are being provided.
    In addition, as we do our outreach to the industry, they 
mobilize assets and bring those into the area so that we would 
have additional cell coverage, as an example, for those 
particular facilities. So it is a partnership that we do across 
Government.
    We also reach out to State and local. We do an analysis of 
the area to identify the key assets. We provide that to local 
law enforcements and other partners so that additional 
resources can be put in place to observe and protect in the 
lead-up to the event and the actual conducting of the event. So 
across the board, we are working with our partners to advise 
that we will be in the area, there may be limitations on how 
the event is conducted. Please prepare for that. Bring in 
additional resources, and be able to stand vigilant with us as 
we go through the actual event.
    Mr. Bilirakis. Very good. Thank you.
    One last question for Mr. O'Connor. Maybe Mr. Edwards can 
weigh in on this as well. Mr. O'Connor, in his testimony, Mr. 
Edwards states that DEC, through its MERS detachments, assists 
NCS in evaluating and supporting post-disaster communication 
restoration needs. Could you please describe how DEC and NCS 
work together to restore communications?
    Mr. O'Connor. Yes, sir, my pleasure.
    Mr. Bilirakis. Thank you.
    Mr. O'Connor. In the steady state we actually participate 
and work together both in the planning and the exercise at a 
National and regional level. So currently at the National level 
we are in the process of reworking the emergency support 
function to ConOps plan, if you will.
    During an actual event, though, DEC has the advantage of 
having geographic dispersion, usually being in proximity to the 
event. So they do an initial outreach to the State, and start 
to begin assessments at that point in time. Part of those 
assessments include working with the State and locals to 
understand what infrastructure is at risk or what has failed. 
At this point, we collaboratively come together and make a 
determination is it best to try and leverage the communications 
industry to first restore that, or do we need to bring in 
tactical gear, which is part of the MERS functionality and 
assets at FEMA, to help the State bring back, for example, a 
tail circuit that was providing connectivity for their land 
mobile radio between an antenna and a switch? What is the most 
effective way to do that?
    That is the coordination function that we have between the 
two entities. We do that during the disaster at a regional 
level from the DEC person that is on the ground, and also a 
predefined communications liaison from the NCS.
    Mr. Bilirakis. Thank you. Mr. Edwards.
    Mr. Edwards. Yes, sir. The DEC Division integrates the 
mission-critical communications and provides a backbone during 
the disaster response. Of course we have the Mobile Emergency 
Response Support detachments. That is six detachments 
geographically dispersed across the United States for that 
reason. In the event that there is a disaster where the 
Governor of the State has requested support, we would rapidly 
respond to that Governor's request and put those assets down at 
the incident site level.
    Of course, we are then at that point in time trying to 
stabilize the event in the first 12 hours, providing command 
and control, communications, and coordination for those 
emergency responders. We would be responding to police, fire, 
EMS, anyone who had the need as defined by our Federal 
Coordinating Official, in concert with the State's 
requirements. We would report, provide situational awareness. 
We would report that as the ESF No. 2 tactical lead on the 
ground with the eyes and ears, back through the various 
regional reporting nodes and then up to the National level. We 
would interface with NCS on potential solutions for temporary 
near-term restoration, as well as long-term restoration to 
ensure the continuity of communications and operations going 
forward.
    Mr. Bilirakis. Thank you very much.
    What I would like to do now is recognize Ms. Richardson for 
a second round. They just called votes, but I think we can get 
through this. I appreciate your cooperation. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman. I have three 
questions. First of all to Mr. Essid, regarding coordinating 
emergency communications within DHS, two questions. What is the 
process for decision-making within these coordinating bodies of 
OEC chairs? No. 2, additionally, does OEC have the authority to 
ensure that other DHS components enforce interagency decisions 
related to emergency communications?
    Mr. Essid. Ranking Member Richardson, we basically have 
been set up as a coordination entity. So the One DHS group I 
talked about within DHS, and even the Emergency Communications 
Preparedness Center that is 14 Federal departments and 
agencies, OEC brings them together. They are consensus-based 
bodies. We don't have any, you know, binding decision-making 
authority. OEC was really created to increase coordination. 
That is what we have been doing. So we have had a lot of 
success that way, but there is a limit to what we can influence 
outside of that collaboration and coordination, which I will 
say has been successful.
    Ms. Richardson. So your current coordination has been 
planning meetings and passing information?
    Mr. Essid. Developing products together within DHS, the 
different components, developing a DHS-wide strategy. Another 
good example would be through that Emergency Communications 
Preparedness Center, Ms. Moore noted 40 Federal grants from 
different agencies for communications. That ECPC developed 
common grant language for all of those 40 separate grants, and 
has now--so those 40 separate grants will be able to leverage 
common grant guidance for communications for the first time 
ever.
    Ms. Richardson. So if something is pending or hasn't gotten 
done, how do you go about getting it resolved if you don't have 
any binding authority? If you could summarize in about 10 
seconds, because I have got a couple of questions yet.
    Mr. Essid. We work with the Members as best we can to bring 
it to resolution, and we try to get it in front of the 
decision-makers, the Secretaries and folks like that from the 
different departments or different components within DHS.
    Ms. Richardson. Okay. Mr. Edwards, and I think I have 
expressed an interest in this topic before, so hopefully you 
are familiar, how do you work with the territories in 
particular? Is there an emergency plan that you could share 
with this committee of how we work with--I am sorry, the Tribal 
areas and the territories?
    Mr. Edwards. Ranking Member Richardson, I don't have the 
specifics of how we are actually out there dealing with them, 
but I believe it is the same as the way we built all 38 of our 
State emergency communications plans. First we work through our 
FEMA regions and the regional administrators. They have the 
personnel and the lead for reaching out through the various 
States and the various territories and Tribes in their area. We 
normally have a kick-off meeting where we all sit down and 
understand the scope of the effort. Then we are invited to go 
down and understand their architectures, their concerns, their 
priorities. All that is documented first within either the 
State, the territory, or the Tribe. It rolls back up. We 
prepare the reports, and then send them through the regional 
administrators, who during these RECWG meetings, these Regional 
Emergency Communications Working Group meetings, are able to 
share that with the State leadership. Then ultimately they are 
signed off on and go into force.
    Ms. Richardson. Okay. If you could supply to this committee 
those plans for both the territories and the Tribal areas. I 
would venture to say they couldn't be exactly the same, because 
Tribal areas are their own sovereign nations. So they, I 
assume, are requiring to be addressed as such. So I would be 
curious to see what plans we have in place with them.
    Finally, Ms. Moore, I wanted to make sure you got a good 
final question as well. If there was one greatest concern that 
you have regarding communications, what would that be, within 
DHS? What would be your strongest recommendation to us? I have 
1 minute and 1 second.
    Ms. Moore. All right. Congressional Research Service 
doesn't give recommendations. We give options for Congress to 
decide. But in my reports I mentioned in my testimony that 
Congress has repeatedly asked for a plan, a strategic plan to 
bring together a communications strategy for deploying a 
network. Here in this 112th Congress we again have multiple 
bills asking for a plan, asking for a network solution, in this 
case only for first responders.
    The failure to plan, to me, has been the biggest problem 
for DHS. The 21st Century Communications Act definitely meant 
for the OEC to work with the regional emergency coordinators to 
develop a plan, a true plan for deploying communications using 
technology. That has been neglected. As a technologist, of 
course, that bothers me. But this has been stated in my CRS 
reports.
    Ms. Richardson. Thank you.
    Mr. Bilirakis. Thank you. I appreciate it. I am sure we are 
going to have some additional questions to submit. You will be 
willing to answer the questions, I assume.
    Thank you very much. I want to thank the witnesses for 
their valuable testimony and the Members for their questions. I 
would also would like to thank a great staff on both sides of 
the aisle. The hearing record will be open for 10 days. Without 
objection, the subcommittee stands adjourned. Thank you again 
for your patience.
    [Whereupon, at 4 p.m. the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
